<html>
<title> - ASSESSING THE FIGHT AGAINST AL QAEDA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





                  ASSESSING THE FIGHT AGAINST AL QAEDA

=======================================================================

                                HEARING

                               before the

                            PERMANENT SELECT
                               COMMITTEE
                            ON INTELLIGENCE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             Hearing held in Washington, DC, April 9, 2008

                               __________


                  Printed for the use of the Committee





                     U.S. GOVERNMENT PRINTING OFFICE

44-478                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001







               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                    SILVESTRE REYES, Texas, Chairman
LEONARD L. BOSWELL, Iowa             PETER HOEKSTRA, Michigan
ROBERT E. (BUD) CRAMER, Alabama      TERRY EVERETT, Alabama
ANNA G. ESHOO, California            ELTON GALLEGLY, California
RUSH D. HOLT, New Jersey             HEATHER WILSON, New Mexico
C.A. DUTCH RUPPERSBERGER, Maryland   MAC THORNBERRY, Texas
JOHN F. TIERNEY, Massachusetts       JOHN M. McHUGH, Texas
MIKE THOMPSON, California            TODD TIAHRT, Kansas
JANICE D. SCHAKOWSKY, Illinois       MIKE ROGERS, Michigan
JAMES R. LANGEVIN, Rhode Island      DARRELL E. ISSA, California
PATRICK J. MURPHY, Pennsylvania
ADAM B. SCHIFF, California
          Nancy Pelosi, California, Speaker, Ex Officio Member
       John A. Boehner, Ohio, Minority Leader, Ex Officio Member
                    Michael Delaney, Staff Director













 
                  ASSESSING THE FIGHT AGAINST AL QAEDA

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                          House of Representatives,
                Permanent Select Committee on Intelligence,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:05 p.m., in Room 
210, Cannon House Office Building, the Honorable Silvestre 
Reyes (chairman of the committee) presiding.
    Present: Representatives Reyes, Boswell, Eshoo, Holt, 
Ruppersberger, Tierney, Thompson, Schakowsky, Langevin, Schiff, 
Hoekstra, Gallegly, McHugh, Rogers and Issa.
    The Chairman. The committee will please come to order.
    Good afternoon. Today we will focus on an issue at the top 
of this committee's agenda, the threat from al Qaeda in 
Afghanistan and in Pakistan. We believe that Osama bin Laden 
and his most senior deputies use the largely ungoverned border 
region between Afghanistan and Pakistan as a safe haven to plan 
terrorist attacks against the United States and our allies. I 
think that today's open session is an important companion to 
the committee's classified work on this very important subject 
to our country. This is one of the biggest threats that we 
face, and the American people deserve to know about it. The 
committee plans to hold additional hearings on al Qaeda, both 
open and closed, in the coming months in order to focus on this 
threat and on our progress in countering it.
    Today we will receive testimony from three experts on al 
Qaeda. The first is Mr. Peter Bergen, a senior fellow at the 
New America Foundation in Washington, D.C., an Adjunct Lecturer 
at the Kennedy School of Government at Harvard University. He 
is also a research fellow at New York University's Center on 
Law and Security. He is also the author of numerous books on al 
Qaeda. Mr. Bergen is both a widely recognized expert on al 
Qaeda and is one of the few Westerners to have actually met and 
interviewed Osama bin Laden.
    Second, we will hear from Mr. Robert Grenier, who, during 
his 27-year career at CIA, served as the Chief of the 
Counterterrorism Center, as the Deputy National Intelligence 
Officer for Near East and South Asia on the National 
Intelligence Council, and also as Special Assistant for Near 
East and South Asia to the Under Secretary of State for 
Political Affairs. Mr. Grenier is as accomplished as an 
intelligence officer can be. We are fortunate to have him here 
today to offer his insights to our committee.
    Finally, we will receive testimony from Steven Emerson, the 
Executive Director of the Investigative Project on Terrorism. 
Mr. Emerson is also a well-known commentator on terrorism-
related matters, and we look forward to his testimony.
    Thank you all for coming this afternoon. Welcome.
    On September 11th, 2001, Osama bin Laden and al Qaeda 
attacked this nation. Immediately following the attacks, we 
knew that Osama bin Laden was responsible; we knew where he 
was; and we had the support of the entire civilized world in 
our efforts to pursue him and to pursue his organization. Yet, 
7 years later, bin Laden remains free, and al Qaeda, incredibly 
enough, remains a threat.
    Most disturbing to me is that, while bin Laden continues to 
plot and to inspire extremism and hatred for the United States, 
the bulk of our troops is bogged down in Iraq, pursuing a war 
of choice against an enemy that did not attack us on 9/11. 
While over 4,000 Americans have been killed in Iraq and 
hundreds more in Afghanistan, Osama bin Laden remains alive, 
apparently comfortable enough to continue issuing statements 
from, of all places, what is believed to be a safe haven in 
Pakistan.
    As Chairman of the House Intelligence Committee, I am 
anxious to hear from our experts on how we got here and what we 
should do about it.
    In 2003, President Bush told the American people that al 
Qaeda was ``not a problem anymore.'' He was wrong.
    As the National Intelligence Estimate released last summer 
states, al Qaeda--and I quote--``has protected or regenerated 
key elements of its homeland attack capability, including a 
safe haven in the Pakistan Federally Administered Tribal Areas, 
operational lieutenants and its top leadership,'' end quote.
    In other words, al Qaeda has the freedom to recruit, the 
freedom to train and the freedom to plot new attacks against 
the United States.
    Clearly the threat from al Qaeda in the Afghanistan-
Pakistan border region is real. Frankly, I am not confident 
that the United States has a winning plan to defeat the al 
Qaeda threat despite the efforts of our men and women in the 
Intelligence Community as well as those in our military and 
diplomatic corps. I look forward to hearing the panel's expert 
views on why we have not eliminated this threat.
    Further, the committee appreciates the panel's assistance 
in helping us understand the operational relationship between 
al Qaeda and the Taliban in Afghanistan and Pakistan, the 
effect that the war in Iraq has had on our efforts to 
neutralize al Qaeda, and a reevaluation of our strategy in our 
conflict with al Qaeda.
    Thank you all again for joining us here today.
    Mr. Reyes. I will recognize the Ranking Member of our 
committee Mr. Hoekstra for any statement that he may wish to 
make.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    Thank you to the witnesses for appearing with us today. 
This hearing today gives us a chance to discuss before the 
American people the continuing threat our nation faces not only 
from al Qaeda, but, from my perspective, the larger threat from 
radical Jihadist terrorism.
    I believe it is beneficial for the American people to hear 
more about the al Qaeda threat. I believe the committee will 
benefit from having this open hearing, but it is very positive, 
Mr. Chairman, to hear you state that we are going to have a 
series of hearings to evaluate the al Qaeda threat, both closed 
and open hearings. Obviously, these individuals may have 
information that may be classified or may have gotten access to 
classified information or whatever, but in this forum, they do 
not have the latitude to talk about it, so much of what we will 
be discussing today will be an incomplete recognition of what 
is actually on the record.
    More than 6 years after 9/11, our nation still seems to 
be--or we now seem to be at a crossroads. On the one hand, it 
is clear that our homeland has not been attacked since that 
tragic, fateful day. This cannot be called anything other than 
a success, and it is a testament to the hard work and 
dedication of the men and women of our Intelligence Community 
and of our military.
    On the other hand, there is a clear tendency by some in 
America and in this Congress to look at our success over the 
past several years as a cause or as an excuse to let down our 
guard. They have confused al Qaeda's failure to successfully 
carry out an attack on our homeland as a lack of intent or as a 
lack of capability on the part of al Qaeda.
    The reality, from my perspective, is that al Qaeda has well 
expressed its intent and, I believe, has the capability to 
carry out an attack on our soil. What they have lacked over the 
past several years is the free rein to plod in the shadows and 
to do so without fear of a U.S. response.
    With our nation and freedom under attack, the smoke and the 
dust still billowing from the ruins of the World Trade Center, 
President Bush huddled with his national security team to 
discuss what needed to be done to protect our nation from 
another catastrophic attack. The President's advisors told him 
the tools and the methods the U.S. intelligence agencies needed 
to track and to combat radical Jihadist groups like al Qaeda. 
Thus were born many of the highly effective antiterrorist tools 
that have helped keep this Nation safe: the Terrorist 
Surveillance Program, the Terrorist Finance Tracking Program, 
the High-Value Terrorist Detainee Program. These programs were 
all briefed to congressional leaders, including to the Speaker. 
In fact, not a concern was raised until these programs were 
leaked to the press, unfortunately, turning them into political 
fodder instead of the valuable, clandestine counterterrorist 
tools that they were designed to be.
    I have to mention the fact that, as we are having this 
hearing, our intelligence capability to protect the American 
people, our embassies, our embassy personnel, troops overseas, 
and our allies continues to erode. As Senate Intelligence 
Chairman Jay Rockefeller declared on the Senate floor in 
February, the quality of the intelligence that we are going to 
be receiving is going to be degraded. It is not enough to 
discuss al Qaeda and the Jihadist terrorism and to ignore the 
erosion and the tools that the Intelligence Community says it 
needs, the very same tools that have kept our homeland safe for 
more than 6 years since 9/11. We need to strengthen our 
Nation's terrorist surveillance capabilities by fixing the 
Foreign Intelligence Surveillance Act.
    Some have asked, why does the United States need to employ 
tough counterterrorism programs? The answer is because the 
radical Jihadist threat did not end with the 9/11 attacks, nor 
did the responsibility of the President and Congress to protect 
our nation. If you listen to the statements of Osama bin Laden 
and of his deputy Zawahiri, it is easy to understand the 
seriousness of this threat, its global implications and the 
determination of radical Jihadists to strike America's 
homeland.
    Osama bin Laden declared war against the United States with 
little fanfare in 1996 when he issued a fatwa titled 
Declaration of War against the Americans' Occupying the Land of 
the Two Holy Places. He acted on this so-called ``declaration 
of war'' with al Qaeda attacks against the U.S. embassies in 
Africa in 1998, against the U.S. Cole in 2000.
    Bin Laden claims parallels between the American presence in 
Iraq and the Soviet presence in Afghanistan. For example, 
according to a strategy document posted to a Jihadist Web site 
in 2003, with guerilla warfare, the Americans were defeated in 
Vietnam, and the Soviets were defeated in Afghanistan. This is 
the method that expelled the direct crusader colonialism for 
most of the Muslim lands.
    The purpose of al Qaeda's terrorist campaign is supposedly 
to establish Osama bin Laden's brand of radical Islam over what 
he calls the Caliphate, a region that, in bin Laden's mind, 
constitutes historic Muslim lands expanding from Iraq to 
Indonesia. He said in 1998 that the pious Caliphate will start 
from Afghanistan.
    Zawahiri made a similar statement in October of 2005 in a 
letter when he wrote the goal in this age is the establishment 
of a caliphate in the manner of the Prophet. In 2006, Zawahiri 
said the reinstatement of Islamic rule is the individual duty 
of every Muslim with every land occupied by infidels.
    Some have asserted--and I expect we will hear this a lot 
from the other side--that the radical Jihadist threat in Iraq 
is very limited or unreal, and that the U.S. should withdraw to 
focus on the so-called ``real war on terror,'' which some claim 
is confined to Afghanistan and the FATA in Pakistan. I cannot 
help but wonder if those who are focused on forcing our 
withdrawal from Iraq would be more comfortable with our 
invading a sovereign, nuclear-armed nation.
    As challenging as our relationship with Pakistan has been 
at times, it is also true that Pakistan has helped us capture 
more al Qaeda terrorists than any other nation. Others here 
today will say that the only reason al Qaeda is in Iraq is 
because we are there, but this ignores the fact that al Qaeda, 
like a moth drawn to a flame, will attack America and our 
people anywhere they can. I refer you again to the al Qaeda-led 
attacks against our embassies in Africa and against the Cole. 
This point of view also ignores bin Laden's unequivocal 2004 
statement that Baghdad is the capital of the Caliphate.
    In July 2005, Zawahiri gave this detailed four-stage plan 
for Iraq in a letter to Zarqawi, the now deceased head of al 
Qaeda in Iraq: The first stage, expel the Americans from Iraq; 
the second stage, establish an Islamic authority or emirate, 
then develop and support it until it achieves the level of the 
Caliphate over as much territory as you can to spread its power 
in Iraq; the third stage, extend the Jihad wave to the secular 
countries neighboring Iraq; the fourth stage--it may coincide 
with what came before--the clash with Israel, because Israel 
was established only to challenge any new Islamic entity.
    We have seen the world over that the threat from radical 
Jihadists is a global threat. It is a sophisticated threat that 
has spread its message; that has recruited followers; and that 
has planned terrorist attacks using the Internet, satellite 
television, and even computer games. Al Qaeda activity has been 
reported in dozens of countries, including China, Canada, 
Sweden, India, the Philippines, Thailand, Serbia, and Yemen. In 
the past month alone, al Qaeda allegedly has attempted two 
unsuccessful mortar attacks against our embassy and embassy 
personnel in Yemen.
    Our Nation, indeed, stands at a crossroad, and the choices 
we make in the days and months ahead are more than about this 
administration or even the next. They are about the future of 
our great nation and the security of her people.
    Mr. Chairman, thank you for having this hearing. I look 
forward to the hearings that we will be scheduling in the 
coming weeks. With that, I yield back the balance of my time.
    The Chairman. Thank you, Mr. Hoekstra.
    Thank you for putting at least some of the things in 
perspective, because you are absolutely right. The next 
administration and future generations are going to have to deal 
with the mess that has been created over the course of the last 
6, 7 years. The greater challenge, I think, is the one that 
calls on all of us to work collectively together to make sure 
that we have given the professionals charged with our national 
security the tools to keep us safe, at the same time balancing 
the rights that we all enjoy as Americans, because if we 
somehow do not have a balanced effort, then the terrorists will 
have won. So I think all of us are pledged to do that.
    I think all of us are pledged to continue to work jointly 
together, both with this administration with the time that 
remains for it and also with the new administration, to make 
sure that future generations are proud of the efforts that all 
of us are making to keep this country safe and the world safer 
for everyone.
    With that, I will now----
    Mr. Issa. Mr. Chairman.
    The Chairman. Mr. Issa.
    Mr. Issa. I would ask unanimous consent that all of our 
opening statements be placed in the record.
    The Chairman. Without objection.
    Mr. Issa. Thank you.
    The Chairman. With that now, Mr. Bergen, you are recognized 
for your opening statement.

STATEMENT OF PETER BERGEN, SCHWARTZ SENIOR FELLOW, NEW AMERICA 
                           FOUNDATION

    Mr. Bergen. Thank you very much, Mr. Chairman. Thank you, 
Ranking Member, and thank you for this invitation and to the 
other members of the committee.
    We were asked to address three questions. One is: How is 
the hunt for Osama bin Laden and senior leaders of al Qaeda 
going? Two: What is the status of al Qaeda today? What might it 
be in the future? Three: What policy responses? We have 10 
minutes each, so I will be brief.
    One: How is the hunt against Osama bin Laden and Ayman al-
Zawahiri going? I think it is fair to say that it is going very 
poorly. There are all sorts of reasons for that, not the least 
of which is that bin Laden and Ayman al-Zawahiri are not making 
the kinds of mistakes that fugitives normally make. They are 
not talking on cell phones. They are not talking on satellite 
phones. The people in their immediate circles are not motivated 
by cash rewards. So the hunt is going poorly.
    Does it really matter if it is going poorly? My answer to 
that is very simple. To suggest that bin Laden is not in charge 
of the al Qaeda global jihadi network is to ignore the global 
communications revolution of the last 10 years. Bin Laden does 
not need to call somebody and ask for something to be done. He 
just releases a videotape or an audiotape. These are placed on 
the Internet. These are some of the most widely distributed 
political statements in history. Millions of people read about 
them, hear about them, see about them. Now, to everybody in 
this room, those statements probably seem very repetitive: Kill 
the Jews. Kill Americans. Kill Muslims who disagree with us, et 
cetera. In fact, many of these statements have specific 
instructions, and I will give you two or three examples.
    Bin Laden has made it official al Qaeda policy to attack 
the Saudi oil industry because he has a narrative about the 
United States that we can be bankrupted by the actions of al 
Qaeda. That is one of the reasons that we had an attack in 2006 
on the most important oil facility in the world, the Abqaiq oil 
facility in Saudi Arabia. Luckily, it was unsuccessful. If it 
had been taken off line, that is 10 percent of the world's oil 
supply.
    There is a direct relationship between what the jihadi 
network will do and what bin Laden says. Similarly, both Ayman 
al-Zawahiri and bin Laden have called for attacks in Pakistan 
in the last several months. Pakistan is now suffering the 
largest epidemic of suicide attacks in Pakistani history in the 
past year. There are many other examples.
    So finding bin Laden and Ayman al-Zawahiri is orders of 
magnitude more important than finding the other al Qaeda 
leaders we have found so far. It was great to find Khalid 
Shaikh Mohammed, but he has no ideas. It is people with ideas 
that change history, and both Ayman al-Zawahiri and Osama bin 
Laden have a readily coherent set of ideas, which unfortunately 
quite a lot of people have signed up for.
    So now for the status of the al Qaeda organization. As you 
know from the NIE, it is resurgent. What is the evidence for 
the resurgence? One, the July 7, 2005 terrorist attack in Great 
Britain, in London. This was the largest terrorist attack in 
British history. It was poorly understood by both the British 
press and by the British Government at the beginning as a bunch 
of self-starting radicalized guys who got together and launched 
the attack. We now know more about the attack, two of the lead 
suicide attackers trained with al Qaeda in Pakistan. Two of 
them released videotapes with al Qaeda's video production arm. 
It was an al Qaeda-directed attack.
    What is interesting about the London attack is it looks a 
lot like the Cole attack of October 2000. It took them about a 
year to plan. It showed al Qaeda's ability to stretch out 
thousands of miles from its base on the Afghanistan-Pakistan 
border.
    Then more broadly what is going on in Britain right now. 
You know from the public statements of John Evans, the head of 
MI-5, that there are 2,000 people in Britain they regard as 
serious national security threats, many of whom have links to 
al Qaeda in Pakistan. Four hundred thousand British citizens 
visit Pakistan every year on completely legitimate trips 
because they are British Pakistanis; if 0.01 percent of them 
hook up with a Kashmiri militant group or al Qaeda. That is 40 
people with training.
    The other aspect of al Qaeda's resurgence is what is going 
on in Afghanistan. In my view, the senior leadership of the 
Taliban and al Qaeda have morphed together ideologically and 
tactically. If you look at the suicide attacks in Afghanistan, 
they only really took off after they saw how effective they 
were in Iraq. There were almost no suicide attacks in 
Afghanistan in 2001, 2002, 2003; 27 in 2005; and 139 in 2006, 
geometrically progressing in number. That is because al Qaeda 
has learned from Iraq, and the Taliban have learned from the 
playbook in Iraq. IED attacks have doubled. Suicide attacks 
have quintupled. Attacks on international forces have tripled 
in the last year in Afghanistan.
    Another indicator of al Qaeda's resurgence is, of course, 
what is going on in Pakistan, where we are seeing 60 suicide 
attacks last year compared to 5 the year before. Another 
indicator of al Qaeda's resurgence is that other militant 
groups are joining al Qaeda: the GSPC, which is the largest 
Algerian group. The Libyan Fighting Group in the last several 
months, which is the largest Libyan Islamic group, has also 
joined al Qaeda.
    Then, of course, there is al Qaeda in Iraq. Al Qaeda in 
Iraq did not exist before the invasion. It has had a 
disproportionately large effect on what is going on in Iraq. It 
got the U.N. to pull out. It attacked the Jordanian Embassy, 
which got Middle Eastern countries to pull out their diplomatic 
representatives. By attacking in Najaf and Samarra, it sparked 
a civil war.
    There have been 900 suicide attacks in Iraq, which is more 
suicide attacks in one country, in one place than there have 
been suicide attacks in history. Eighty to ninety percent of 
them are by al Qaeda in Iraq.
    Al Qaeda in Iraq is obviously taking some hits right now, 
but declarations of their being over, I think, would be 
premature, because whatever happens with United States policy 
in Iraq, we are obviously going to draw down. Drawing down will 
help al Qaeda in two ways. One is it will help their narrative 
that we are a paper tiger. That narrative is based on Vietnam, 
Beirut and Mogadishu. Two, it helps their strategy, much more 
importantly. They want to regroup and to get in a safe haven. 
So whatever drawdowns we do must take this into account.
    Other elements of al Qaeda's regrouping, of course, include 
its video production arm, which has produced more videotapes 
last year than it did in its history previously, 90 videotapes. 
Videotapes imply cameramen. It implies editors. It implies 
distribution systems. This is a group that takes its 
information operations very seriously, probably more seriously 
than we do.
    So that is a snapshot of where al Qaeda is today. Given 
that snapshot, what can they do in the future? I am not going 
to discuss Chicken Little scenarios like nuclear weapons, but I 
think there are two things they can do in the next 5 years that 
are very plausible. One, they can bring down a commercial jet--
it does not have to be American, it can be anywhere in the 
world--with a rocket-propelled grenade or a surface-to-air 
missile. They tried to do this in Mombasa, Kenya, with an 
Israeli charter jet. It almost succeeded. This is something 
that they have the ability to do, and this is something they 
have a strong interest in doing, and it is something that we 
have seen them try to do before.
    Another thing they can pull off plausibly is an attack on a 
major European city with a radiological weapon. Such an attack 
would have a nasty effect on global investor confidence. It 
would not be a weapon of mass destruction, it would be a weapon 
of mass disruption. Nonetheless, it would seem to be a 9/11-
style event. Likewise, bringing down a commercial jet would 
have a very nasty effect on global tourism and aviation.
    I believe that al Qaeda's ability to attack the United 
States is extremely constrained looking at it in the next 5 
years. The reason I say that is look at the plane plot of the 
summer of 2006. This was al Qaeda's fifth anniversary 
celebration, as it were, of 9/11. The plane plot was very 
interesting, the plan to bring down as many as six American 
airliners. It was interesting for two reasons. First of all, 
they selected the hardest target imaginable, commercial 
aviation. They are not interested in attacking Des Moines 
malls. They are interested in attacking New York, Los Angeles 
and D.C. and commercial aviation. Two, they decided to do it in 
Britain. Why did they decide to do it in Britain? Because they 
have got people there. If they could have done it in the United 
States, they would have done it. There have been attacks by 
jihadi terrorists in the past, the World Trade Center attack in 
1993, the attempt to blow up Los Angeles International Airport 
in 1999, and the 9/11 attacks. All of these attacks were 
conducted by people coming from outside.
    It is a lot harder to get into the United States right now. 
The Government has made it safer in a number of ways. The 
American public is more vigilant. Al Qaeda, while it is 
resurging, it is still not at the point it was on September 
11th, 2001. So, while it is plausible that people acting in the 
name of al Qaeda might produce small-bore terror attacks 
domestically, in my view, a major al Qaeda attack is not so 
likely.
    The impact of the Iraq war was touched upon in the opening 
statements. Donald Rumsfeld famously complained: What are the 
metrics for losing or winning the war on terrorism in 2003? 
Well, one metric that I thought was relevant is terrorism 
figures. A colleague of mine at NYU used a very conservative 
methodology in a RAND database, and we found that if you 
compare the period between September 11th and the beginning of 
the Iraq war and the period from after the invasion up to 
September 2006, you find that the rate of jihadi terrorist 
attacks went up sevenfold around the world.
    When I say jihadi terrorist attacks, they are attacks that 
kill at least one person or more. Of course, a lot of that 
happened in Iraq. A good deal of it happened in Afghanistan 
because of copycatting or learning on the job in Iraq by 
Afghans, mujahedin and Pakistanis. Also, a good deal of it 
happened in Europe--the London attacks, Madrid, the Glasgow 
attempts--and, of course, around the Arab world.
    Now, when I mention this, I am not making the absurd 
statement that the Iraq war caused all of these attacks, but it 
certainly energized the jihadi terrorist movement around the 
world in a way that, if you do the thought experiment where if 
the Iraq war had not happened, we might be in a slightly 
different place.
    Am I running out of time, by the way?
    The Chairman. You have got about 50 seconds.
    Mr. Bergen. Okay. Some quick ideas about what we should do 
about this.
    I think one of the most critical things we can do is to 
create a universal database shared across all elements of the 
U.S. Government which looks at all insurgents, all terrorists, 
all of their clerics, and all of their friends and family. 
Friends and family are how you get into the jihad. I know that 
we are looking at the Iraqi insurgency in Iraq, and we are 
looking at the Afghan insurgency in Afghanistan, but we need to 
think about this globally. We need to look at the 
interconnections. We need to find who are the clerics who are 
disproportionately inciting young men to go to the jihad. This 
would be useful not only from an intelligence point of view, 
but also from a policy point of view. With such a study, we 
could say to the Governments of Pakistan and Saudi Arabia, 
where so many of these suicide attackers are coming from, it is 
this particular cleric and this particular mosque that are 
producing a disproportionate number of the suicide attackers. 
We are not saying this just because it is in our best interest, 
but that it is also in yours, because when these conflicts are 
over, this will blow back in your face as much as anywhere 
else.
    Thank you.
    The Chairman. Thank you very much.
    [The statement of Mr. Bergen follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Grenier, you are recognized for 10 
minutes.

  STATEMENT OF ROBERT GRENIER, MANAGING DIRECTOR, KROLL, INC.

    Mr. Grenier. Thank you, Mr. Chairman and Mr. Hoekstra. I 
want to thank you and the other members of the committee for 
inviting me here today. This is a privilege for me.
    I should begin by reminding you of something that you 
already know, and that is that I am almost 2 years now out of 
government, and there is much that I do not know now in terms 
of current privileged information beyond that which is openly 
available, nor do I have particular insight into the 
methodologies that are currently being employed. So I have not 
come here today to provide you with new information.
    What I hope I can do is to provide you with certain 
judgment and perspective based on many years as a partitioner 
in this area, and I hope that that will be of use to you in 
your very important oversight role in questioning and in 
testing assumptions and in challenging current practice in 
countering terrorism.
    I should point out further that I am a very strong personal 
believer in vigorous oversight, and all the more so now that I 
am no longer directly subject to it.
    With regard to Osama bin Laden, here we are 6-plus years 
after 9/11, and the man remains at large. As Peter has pointed 
out, that is a very serious state of affairs. It is important 
that we effect his capture, although, I think we may differ on 
the degree to which it is important.
    I will tell you, quite frankly, that I am not terribly 
surprised that he is still at large. Tracking down bin Laden is 
going to be very, very difficult. Most of us who claim some 
expertise in this area, as Peter has already pointed out, 
believe that he is most likely hiding out in Pakistan in the 
Federally Administered Tribal Areas, I suspect somewhere north 
of the Khyber Pass and south of Chitral. It is a very, very 
difficult area. It is mountainous. It is fractured both 
demographically and anthropologically. It is a very hostile 
area not only to us as outsiders, but even to other Pakistanis 
who are not from that area. His location in that area actually 
is a guess. I mean, for all we know, he may be hiding in an 
apartment in Karachi certainly, for all that I know.
    What I think is almost certain is that, wherever he is, he 
is keeping a very low profile. I doubt that he is moving at 
all. The number of individuals who are directly knowledgeable 
of his whereabouts, I suspect, is extremely small. As Peter has 
already pointed out, it is certain that he and his confederates 
are using very careful and very disciplined tradecraft in 
controlling his communication, whether it is by videotape, 
audiotape or otherwise.
    I would point out that Eric Rudolph, the American terrorist 
responsible for the attack on the Olympics in Atlanta and for a 
number of other bombing attacks in the United States, managed 
to remain at large for over 5 years in the mountains of North 
Carolina despite the fact that he was at the top of the FBI's 
most wanted list, that there was a $1 million bounty on his 
head, and that there were very active efforts, both official 
and nonofficial, to effect his capture.
    Bin Laden has a great many advantages over Eric Rudolph 
given where he is, given where he is hiding, and given the 
capabilities that are at his disposal. So, again, I am not 
terribly surprised at all that he has not been captured. Quite 
frankly, I think that it is quite likely that he is going to 
remain at large for an indefinite period of time.
    In terms of methodologies that one might employ to effect 
his capture, well, there are a great many things that have been 
done that could presumably be done, but I think that they fall 
in two broad categories. One I would call a network-based 
approach. Since bin Laden does communicate at least to some 
degree, the theory is that there is some sort of a human chain 
that extends from him to others outside the immediate area 
where he is hiding, and that if you were to capture an 
individual somewhere in that chain and interrogate that 
individual, you could then trace the chain back to bin Laden.
    There are two very obvious problems with this. The first is 
that you have got to capture someone in that chain alive. It is 
most likely that the individuals who have even indirect 
knowledge of the network that is being employed by bin Laden in 
order to communicate are in the Federally Administered Tribal 
Areas. We have not captured anyone alive in the Federally 
Administered Tribal Areas for quite some time. There have been 
a number of terrorists who have met their demise there, but 
they have all been the victims of lethal strikes. They have not 
been captured. Those close to them have not been captured, and 
we have not been able to recover their material, either 
documents or electronic media. So that is a real problem.
    Secondly, even if we were to capture one of these 
individuals, as Peter has said, the tradecraft that is being 
employed, I suspect, is probably not terribly sophisticated. In 
fact, its great merit, I would imagine, is in its simplicity, 
but our ability to follow the trail, as it were, the human 
trail, back to bin Laden would be reliant on mistakes on their 
part, because it is quite easy and it is quite simple to effect 
what we would call nonpersonal communications so that there are 
firebreaks in that human chain leading back to bin Laden. 
Again, it would require a mistake, a breakdown in discipline on 
their part, in order for us to unravel that.
    A second broad approach that we might employ would be what 
I would call a local informant-based approach. That assumes 
that wherever bin Laden is hiding, there must be some resultant 
anomaly. If he is hiding in a compound somewhere in a remote 
area of northern Pakistan, presumably, there are outsiders who 
occasionally travel into that area in order to effect 
communications with bin Laden. There may well be an unused 
guesthouse on a compound which historically has been used and 
no longer is being used, and nobody knows why. There may be 
anomalies in terms of the amount of food that is being provided 
to a particular location that is not consistent with the number 
of people who are known to be there.
    None of those indicators would be in any way definitive, 
but if you had one or more of those indicators, that would be 
an indication that you ought to follow up vigorously with some 
sort of a local investigation. In order to do that, however, 
given the atomized nature of the areas in which bin Laden is 
most likely hiding, you would have to have a great number, a 
great many informants, any one of which would only be able to 
cover a very small, localized area.
    You cannot do that for all of northern Pakistan. What you 
can, perhaps, do is to set some priorities of areas that you 
would particularly want to look at. I think that there are some 
criteria that you could set for which are the areas that you 
particularly want to look at hard. Then you would have to move 
about very vigorously and systematically to identify and to 
recruit informants in each of those areas. It is a very, very 
difficult, time-intensive, manpower-intensive effort. I do not 
say that it cannot be done, but even if you did everything 
right, you would also have to be very lucky, I think, to 
succeed in the end.
    Particularly when we are talking about a local-informant 
and investigation-based approach, that has the further problem 
associated with it that it would largely be unrelated to the 
larger effort to kill, to capture or to otherwise neutralize 
senior members of al Qaeda who are hiding in the safe haven in 
the Northwest Frontier. I might differ a little bit from Peter 
in that as important as I concede the effort to locate, to 
capture or to otherwise eliminate bin Laden and Zawahiri, I 
think it is actually much more important in the near term that 
we continue the effort to kill or to capture senior lieutenants 
who, unlike bin Laden and probably unlike Zawahiri, are 
directly involved in the effort to launch terrorist attacks 
across the border in Afghanistan, in Western Europe and, 
perhaps, much farther afield. That is a very broad topic, and 
perhaps we will get into it in the Q&A portion.
    I will just make two broad points here. One is that what we 
are trying to do in the Federally Administered Tribal Areas are 
two broad things, two broad objectives, and they work in direct 
conflict with one another. The first is that we are trying to 
kill or to capture senior terrorists who are engaged in 
plotting against us. At the same time, we are trying to deny 
them safe haven in that area. Progress against one of those 
objectives works directly against our efforts in the other 
respect, and vice versa.
    The second broad point that I would make is that the only 
way that we are really going to get an arm around this problem, 
and the only way that we are going to make anything like 
permanent progress, is to deny the FATA as a safe haven for bin 
Laden, for al Qaeda and for related extremists. I believe that 
the only way that we are going to do that is through a long-
term counterinsurgency effort that will be multifaceted and 
that will be as much economic- and political- as it will be 
military- and intelligence-based. It will be something that can 
really only effectively be done by the Pakistanis, but once we 
have convinced them that they must do it, then it will require 
a great deal of vigorous support on the part of the United 
States in a very long-term commitment to sustain that effort.
    With regard to the much broader, literally global struggle 
against al Qaeda, again, that is a very, very broad topic. I 
would just like to stress three points there. The first is that 
I agree with Peter that it is absolutely vital that we sustain 
the progress that has been made and, in fact, make further 
improvement in the situation with regard to al Qaeda in Iraq. 
It would be tremendously dangerous for us if al Qaeda were able 
to establish an effective safe haven in the Sunni-dominated 
areas of Iraq.
    Secondly, one of the things that is often overlooked, I 
think, is the fact that we rely absolutely on the effectiveness 
of our allies in the war on terror. We do not tend to think so 
much about it in terms of resources. We do not tend to focus on 
it nearly as much, but we would be essentially dead in the 
water were it not for the vigorous efforts of our allies. I 
think that, therefore, capacity-building is an extremely 
important part of our international program that is often 
relatively overlooked.
    The third has to do with the war of ideas, this whole issue 
of whether we are creating more terrorists than, in fact, we 
are killing and capturing. I believe that currently we are, and 
that unless there is effective engagement in the so-called 
``war of ideas,'' we are not going to turn a corner on that. I 
do not think that we have engaged in that battle at all. I 
think to the extent that we have thought about it, our thoughts 
have been confused. However, I think that the keys to progress 
in that area are in two areas that, frankly, should be great 
national strengths of ours. The first is a commitment to 
justice. The second is a commitment to democracy.
    With that, I will end my statement. Thank you.
    The Chairman. Thank you, Mr. Grenier.
    [The statement of Mr. Grenier follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. We have got less than 8 minutes left in the 
vote. We have got three votes. I want to recess the committee 
and then come back with Mr. Emerson's opening statement.
    Thank you. The committee is in recess.
    [Recess.]
    The Chairman. The hearing will please come to order.
    With that, Mr. Emerson, you are recognized for 10 minutes.

     STATEMENT OF STEVEN EMERSON, EXECUTIVE DIRECTOR, THE 
               INVESTIGATIVE PROJECT ON TERRORISM

    Mr. Emerson. Thank you, Mr. Chairman. I appreciate the 
opportunity here, and I thank you and your fellow Members for 
holding this hearing.
    I would like to say that I was very impressed with my 
colleagues' testimony. They leave me very little to say, of 
course, but I will try. I apologize for the length of my 
testimony. It was designed to relieve any of you of the need to 
take any Ambien.
    So I would say, first of all, that the first problem we 
face right now is the new government in Pakistan. As you know, 
Musharraf had attempted to broker peace with the tribes and 
militia, and it culminated in a counterproductive deal between 
the tribal and militant leaders in northern Waziristan. 
According to the deal, foreign fighters were to leave north 
Waziristan, and then tribal leaders were to clean house. It did 
not happen. The insurgency in the FATA area grew emboldened by 
what could be seen as an official government sanction of these 
illegal armed groups. Regardless, the deal ended when Pakistani 
forces crushed militants who seized control of the infamous Red 
Mosque in Islamabad in July 2007. Since then, tribal and 
militant leaders have denounced Musharraf and have even carried 
out 36 suicide bombings against military targets alone.
    Now, with the new recent elections, there is a lot of 
uncertainty. Musharraf played both sides of the house, but 
largely it was a 51-49 deal in working with the U.S., but also 
in knowing that his flow of new fighter jets and lots of 
billions of dollars depended upon the ability to keep finding 
new al Qaeda leaders. Miraculously, one leader after another 
was captured almost on a regular basis, on a yearly basis, but 
the new Pakistani Government lead by the People's Party will 
likely seek, unfortunately, a Northwest Frontier policy and a 
Federally Administered Tribal Area policy that differs markedly 
from Musharraf's policy.
    I think one of the basic recommendations that I would come 
out with is that we need to make sure that the new Government 
of Pakistan sees that it is in its own best interest to be as 
aggressive as possible in the Taliban areas of Waziristan and 
in the FATA area in the Northwest Frontier Province, and to 
allow the United States the latitude to unilaterally conduct 
cross-border strikes and Predator strikes at high-value targets 
as had been done just several weeks ago.
    As far as the hunt for bin Laden, my belief is that, if we 
look at bin Laden, he was certainly the pinnacle of his 
organization that was reached on September 10th, 2001. Since 
then, it has been dispersed. It has been largely incapacitated 
as an organization, although it has reconstituted itself with 
new leaders taking part in replacing two-thirds of the 
leadership that had been taken out, either killed or captured, 
since 9/11.
    There is some good news as to a high-ranking leader that we 
identified in the testimony, Abu Obaidah al-Masri. Today, it 
was revealed that he was found dead. I do not know the 
circumstances of his death, but at least that is one more major 
leader who has been taken out.
    Now, having said that, al Qaeda is both an organization, 
again, really constituting lots of miniorganizations or other 
organizations like the Islamic Movement of the Maghreb, GSPC, 
the Egyptian Islamic Vanguards, the al-Zawahiri acquisition 
back in 1995.
    It is also a movement. I think, as a movement, frankly, it 
is almost more dangerous than as an organization. In that 
respect, we see what is happening in Europe in terms of the 
plots that have occurred in Denmark, in the U.K., in Madrid, 
and most recently in Germany. Germany was quite interesting 
because this converges directly with what the Director of the 
CIA said 2 weeks ago, that we are about to see a new type of 
profile of Islamic militants come through our borders, one that 
will not be as detectable as the other proverbial types, 
meaning that the two major members of this cell in Germany that 
were about to attack Ramstein Air Force Base as well as 
nightclubs and American bars frequented by Americans were 
Germans who had converted to Islam. Their arrests have resulted 
in some incredible interrogations and confessions that have 
revealed how they transited to al Qaeda-affiliated camps in 
Pakistan on their own volition. As a result of going there, 
they hooked up and got trained in how to carry out bombings.
    The same can be said for the Danish plot. The same can be 
said for the July 2005 bombing of the trains in London. Then in 
other countries such as Italy and Belgium, we find also other 
plots. Some of them do not show a linkage directly to al Qaeda.
    For example, the Hofstede Group carried out the killing of 
Teddy van Gogh, a Dutch filmmaker who had made a film called 
``Submission.'' It was particularly horrifying when it was 
carried out several years ago because it was simply a group of 
young Muslims based in Belgium--not in Belgium, but in the 
Netherlands--who basically said, we are going to kill anybody 
who insults the Prophet or who insults Islam. They stabbed him, 
and they shot him multiple times, as a result of which 
colleagues of his--eight colleagues of his and members of the 
Parliament had to go into hiding. Today there are at least 
seven members of Parliament there who are still members or who 
are former members who are in hiding as a result, including 
Geert Wilders, who just made a film called ``Fitna.''
    Even though the film can be considered anti-Islamic, I 
would refer you to the very good article written by the Ranking 
Republican Mr. Hoekstra, who wrote a piece in the March 27 
issue of The Wall Street Journal in which he stated, reasonable 
men in free societies regard Geert Wilders' anti-Muslim 
rhetoric and films like ``Fitna'' as disrespectful of the 
religious sensitivities of members of the Islamic faith, but 
free societies also hold freedom of speech to be a fundamental 
human right. We do not silence, jail or kill people with whom 
we disagree because their ideas are offensive or disturbing. We 
believe that when such ideas are openly debated, they sink on 
their own weight and attract few followers.
    The fact of the matter is that there has been a 
reconstitution. When we look at the larger picture, what are we 
facing? This hearing is supposed to focus on al Qaeda, but my 
contention and my testimony, half of my 50 pages--and I 
apologize for the length--focuses on al Qaeda or on al Qaeda-
linked plots in Europe, on the use of the FATA area and the 
Northwest Frontier Province to launch attacks, on the use of 
self-anointed franchises in Europe, and then on homegrown 
franchises in the United States or in Canada or in London that 
attach themselves to al Qaeda's ideology.
    It is my basic contention that we cannot decouple al Qaeda 
from the larger battle against radical Islamic etiology from 
which it stems. If we do, we are guaranteed to lose the war 
against al Qaeda. Al Qaeda was born out of an organization, as 
are almost all other Sunni movements, called the Muslim 
Brotherhood. That is what drives al Qaeda. It also drives 
Hamas. It drives Islamic Jihad. Their etiology--it is the 
etiology of al Qaeda as well--is intrinsically hostile to 
secular democracies that value pluralism, the separation of 
church and state, free speech, minority rights, and freedom of 
religion.
    A former member of the Clinton administration, who I worked 
with in combating terrorism back in the 1990s, Richard Clarke, 
stated in testimony in 2003 that the issue of terrorist 
financing in the U.S. is a fundamental example of the shared 
infrastructure levered by Hamas, Islamic Jihad and al Qaeda, 
all of which enjoy a significant degree of cooperation and 
coordination within our borders that commonly carries the 
extremist Muslim Brotherhood. All of these organizations are 
descendants of the membership and etiology of the Muslim 
Brotherhood. So, therefore, I think that it is imperative that 
we look at the larger problem of radical Islamic etiology of 
which al Qaeda exploits and propagates, but that also is 
propagated by a host of other organizations that were derived 
from the same parent, parental organization, the Muslim 
Brotherhood.
    As you probably are aware, in the Holy Land Foundation 
trial that was held last fall in Texas, more than 100,000 
documents were released that were probably the most important 
national security documents released in the last 30 years. In 
those documents they revealed the extent to which the Muslim 
Brotherhood itself had implanted itself within American borders 
with the same intent as al Qaeda, but to do it internally; that 
is, to carry out an internal jihad from within--a 
``civilizational jihad'' they called it--to sabotage and to 
subvert U.S. democracy from within.
    I call this almost the stealth jihad. On one hand, you have 
open attacks which we recognize as terrorist attacks. Then you 
have infiltration. That is as dangerous an attack as well, 
because that undermines our whole basis of democracy.
    The fact that a Hezbollah member was able to infiltrate the 
CIA and FBI recently, and the fact that a member of the 
Hofstede Group infiltrated AIVD shows that these Islamic 
radical groups are trying to penetrate Western intelligence, 
and they have already penetrated Middle Eastern and Southeast 
Asian intelligence organizations. One only has to look at ISI 
in Pakistan to see how much they have been compromised 
historically and how they are still compromised and are 
unwilling to admit that they have far more knowledge about 
where bin Laden's likely whereabouts are or al Zawahiri's than 
they have admitted publicly.
    So I believe that we cannot afford to basically isolate the 
problem only as al Qaeda. One only has to look at what happened 
after the Danish cartoons, which resulted in 24-hour protection 
for Hirsi Ali, who is a member of the Dutch Parliament, and for 
other parliamentarians.
    Now, in the United States itself, I am submitting for the 
record an actual wanted poster, printed in an Arabic newspaper, 
of a woman named Wafa Sultan, who resides in the United States. 
She emigrated from Syria. She was a Syrian Muslim. She has 
spoken out against radical Islam on television, on al-Jazeera 
of all places, and has debated even the spiritual leader of the 
Muslim Brotherhood's use of al-Qaradawi, who has himself issued 
fatwas calling for the killing of Americans in Iraq and for the 
killing of Jews. Well, he declared that Ms. Sultan insulted 
Islam. Then this poster came out that said that she was a 
vilifier of Islam; it said ``Wanted for Justice.'' That poster, 
which I am holding up here, is clearly the first time, I 
believe, that an American--she is an American now--has gone 
into hiding on her own volition, without the protection of the 
FBI, because of the threats stemming from the larger 
etiological confrontation spawned by radical Islam.
    The Chairman. Thank you, Mr. Emerson.
    [The statement of Mr. Emerson follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. Without objection, all of your statements in 
their entirety will be part of the record. We really appreciate 
your being here.
    Let me start the questioning.
    First, we know that al Qaeda attacked us on 9/11. As some 
of you have indicated, we know we have made some significant 
progress, but Osama bin Laden in particular and al Qaeda in 
general continue to be an issue for us. Whether it is al Qaeda-
specific or al Qaeda as the cause that other organizations or 
other groups choose to align themselves with in order to carry 
out terrorist action globally against Western countries, 
nonetheless, 7 years later, al Qaeda is still able to recruit; 
they are still able to train; and in particular, Osama bin 
Laden is still able to send out his messages, as well as al-
Zawahiri. Whether or not they are coded messages or just 
messages of encouragement, they are still problematic to all of 
us.
    My first question is: How is it that al Qaeda has been able 
to regain strength? With Osama bin Laden still at large, what 
does this specifically mean for al Qaeda? I will ask each of 
you to comment.
    Mr. Bergen. How is it that al Qaeda has regained strength?
    The Chairman. Yes. How is it that he has been able to 
regain strength? Secondly, what is the role that Osama bin 
Laden plays to that end?
    Mr. Bergen. We know in 2002, Mr. Chairman, that the 
documents that were picked up on the battlefield after the fall 
of the Taliban revealed that al Qaeda internally felt under 
great pressure, and there was a fair amount of criticism for 
months within al Qaeda for attacking the United States. These 
documents say we have got an 800-pound gorilla coming after us, 
the United States. The attack was a dumb idea.
    In 2002, al Qaeda, by its own account, not by our account, 
was on the ropes. A critical component in al Qaeda's resurgence 
was the Iraq war, because, A, it confirmed bin Laden's large 
narrative about the United States; B, it increased 
radicalization around the Muslim world; and it increased anti-
Americanism. So al Qaeda was able to take the Iraq war and 
basically use it as a life raft, and of course they kept their 
safe haven on the Afghan-Pakistan border.
    Safe havens are very important because without safe havens, 
you cannot train. Without training, you cannot be an effective 
terrorist. We do not train the American Army on the Internet. 
It turns out that you do not train effective terrorists on the 
Internet; you train them in training camps. So they kept their 
safe haven on the Afghan-Pakistan border, and they have this 
important new development in Iraq. Both the Democrats and the 
Republicans tend to say that the central front is either in 
Iraq or in Pakistan. The problem is the central fronts are in 
both countries right now. So those are, I think, some of the 
factors of the resurgence.
    How important is bin Laden to the movement? I believe that 
if von Stauffenberg had killed Hitler with a bomb under the 
conference room table in 1944, World War II would have finished 
much quicker. Bin Laden and Hitler are very different people, 
but certain people influence history very directly. As for 
Ayman al-Zawahiri and bin Laden, it was their idea for 9/11 
largely. Al Qaeda is their creature. If you took them away from 
the scene, the organization itself would be very wounded. We 
weren't attacked by a set of ideas on 9/11, we weren't attacked 
by an ideological movement. We were attacked by an 
organization. Organizations have leaders. Bin Laden is the most 
important leader. If we capture or kill Ayman al-Zawahiri, that 
would be useful, but it would not be as important as capturing 
bin Laden. Ayman al-Zawahiri is somebody who, even within the 
organization, is not regarded with great love. People love bin 
Laden. That is a very strong word.
    Mr. Grenier. Well, I would support what most people have 
just said. I think when we talk about al Qaeda as narrowly 
defined, that organization that was responsible for the attacks 
on 9/11, it has been able to reconstitute itself in the 
Pakistan-Afghanistan border areas. I was there in Pakistan when 
members of al Qaeda were fleeing out of Afghanistan. At that 
point they were intent on making their way through Pakistan to 
Iran and to the gulf. It was as a result of that, their sort of 
moving through these ratlines, if you will, through Pakistan, 
that we were able with our Pakistani allies to wrap up a very 
large number not only of senior al Qaeda cadres, but also of 
simple fighters who were coming out of Afghanistan.
    At a certain point they realized that there was an 
opportunity for them to gain safe haven in the tribal areas. 
The first great concentration of them we saw was in South 
Waziristan. We really sort of tumbled into that in the spring 
of 2004. I will not recount all of the agonized history, but 
there were effective actions that were taken by ourselves and 
by the Pakistanis there. There was a migration up into North 
Waziristan and into the Bajor Agency, and that is really still 
where the center, if you will, of safe haven activity on the 
part of al Qaeda still exists.
    Because of some of the history that Steve just mentioned, 
particularly the agreement that was reached by General 
Musharraf with the extremists in North Waziristan in September 
of 2006, unfortunately they have been able to establish 
themselves quite firmly in that area, and that is the situation 
as it still persists here today.
    With regard to al Qaeda in Iraq, that is a very significant 
phenomenon. It is somewhat different, however, I think, from 
the narrative that I have just described. Al Qaeda in Iraq was 
a creature, a creation, of Abu Musab al-Zarqawi. Zarqawi was 
sort of, roughly, affiliated with al Qaeda. He was not sort of 
a bayat-swearing member of al Qaeda, but he was able, if you 
will, to establish a franchise.
    And he saw a great benefit to himself and his organization 
in assuming, if you will, the al Qaeda brand. And as Peter has 
pointed out, we see the same thing replicating itself 
elsewhere, organizations which heretofore have seen themselves 
as part of a national struggle, whether in Morocco 
particularly, in Algeria, in Libya, and elsewhere. Now as they 
have been stymied in their efforts to take over their native 
countries they have, if you will, rebranded themselves as al 
Qaeda, in this case al Qaeda in the Arab Maghreb, and also are 
beginning to think of themselves and their mission in very 
different terms. The former GSPC, now a major part of al Qaeda 
in the Arab Maghreb, whereas before saw its mission as 
Islamizing, liberating their country Algeria, now they see 
themselves quite self-consciously as part of a global jihad. 
And I think that is significant. We are seeing the same thing 
now with hitherto independent movements in Pakistan and 
Afghanistan. We now see members of the Taliban who before, 
although they were providing assistance and safe haven to al 
Qaeda, now they see themselves much more so than before as part 
of the same global movement.
    The same is true of the collection of the extremist groups 
within Pakistan, the rise of Pakistanis who now refer to 
themselves loosely as Tehrik-e-Taliban. They now again see 
themselves, rather than people who were locked in the highly 
particular goals and aspirations, they now see themselves as 
part of a much wider movement.
    So, on the one hand, al Qaeda as narrowly defined I think 
is a phenomenon largely of the Pakistan-Afghanistan tribal 
areas, but the influence of bin Laden has been one to spread 
the brand around the world.
    I disagree a little bit with Peter in that my belief is 
that if bin Laden were to die tomorrow it would not mean the 
end of al Qaeda. I think that he is a great symbol for the 
movement. I think the fact that he is still alive and remains 
at large is greatly encouraging to those within al Qaeda and to 
members of that much broader movement. But I think that they 
would find a way to carry on both as a movement and as an 
organization if he were to meet his demise.
    The Chairman. Mr. Emerson.
    Mr. Emerson. You raise a great question. How is it that al 
Qaeda could reconstitute itself in such an incredible way 6\1/
2\ years later after all of the efforts we have gone through, 
cutting the money, arresting, killing, targeting people, 
killing top leaders, interrogating, getting our intelligence? 
How could they still do this.
    I think my response would be, one, there was almost a 
perfect storm that developed right after 9/11, and one was the 
incredible fast-paced developments of information technology 
that allowed al Qaeda to transmit propaganda as well as 
communicate internally without being detected by U.S. 
technology. We were not fast enough to figure out how they were 
getting their tapes, how they were communicating among 
themselves. In the 1990s we picked up their cell phones and we 
picked up their satellite cell phones, but they have gone 
beyond that, way beyond that. So they figured out a way to 
communicate without us detecting what they were saying. We used 
to hear the word ``chatter.'' Well, you know what the word 
``chatter'' means; it is disparate words and doesn't mean 
anything to us. It is nonstructured data.
    Number two, there are a lot of demobilized Jihadists from 
after the Afghanistan invasion.
    Number three, there was the liberation of territory 
essentially established by the Taliban and al Qaeda supporters 
in Waziristan and parts of Afghanistan and certainly in the 
FATA and the North-West Frontier Province.
    Four is European laws had not come to grips yet with the 
fact that a lot of the extremist Muslim immigrants had an 
easy--there were no laws restricting the flow back and forth 
between Europe and Pakistan, Afghanistan, and other countries 
who had supported terrorism. So there was a large migration, I 
shouldn't say massive, but a large flow of people who went into 
Pakistan, got training, then came out and went back to Europe. 
So bases in Europe got established.
    And then, of course, you had self-anointed franchises.
    So al Qaeda sort of grew again by virtue of its children in 
the Maghreb, in Algeria, in Lebanon, in Gaza.
    You know, when you asked the question of the reconstitution 
of al Qaeda, you could ask the same question of Hamas, which 
was on its legs when it was blockaded entirely and it is still 
surviving very well. You could have asked the question about 
Islamic jihad, you could have asked it about GSPS.
    All of these groups show one thing in common: The 
transcendence of radical Islamic theology over self-interest, 
over civil interests, over any national interests, over any 
economic interests. 15 of the 9/11 hijackers came from families 
that had wealth considered to be evaluated more than $10 
million in value. So it shows that wealthy families produced 
kids who carried out the 9/11 attacks.
    So that transcendence of radical Islamic theology is what 
we were dealing with, and I think we have failed, honestly, as 
a government to come to terms with this.
    And I give you one great example. When Karen Hughes, who 
was Under Secretary of State, was in charge of this outreach 
program, and to use the market of ideas, she thought that 60-
second commercials and radio stations were going to basically 
convert people who believed in jihad and suicide bombings into 
rational, democratic, secular, pluralist folks. It didn't work. 
It wouldn't work. She ended up meeting with the Muslim 
Brotherhood thinking that, if we are rational, they are 
rational. We view others the same way we view ourselves. Well, 
it wasn't the case. They lied to her. In fact, we ended up 
empowering the Muslim Brotherhood and empowering radical 
Islamic groups around the world, including groups in the United 
States, into believing somehow that we are a weak tiger and 
very weak and naive in believing that somehow talking to people 
was the only way we were going to convince them that the free 
market would produce a rational response.
    The Chairman. Thank you, Mr. Emerson.
    Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman. And thanks to the 
witnesses. I appreciate your time and your knowledge on this 
background. And with all that we have studied on the committee 
over the last number of years, I think we start and have an 
appreciation for how complex that issue is and how difficult it 
is to get your hands around it. And I think in this last 
question, in your opening testimony, you talked about one thing 
that I agree with you on, is their ability to use new 
technology, use the Information Age, and use it to their 
benefit to drive their message to perhaps provide some 
direction to where they want these disparate organizations to 
move and to get things done.
    I think the other thing that I believe about al Qaeda is 
that it is a learning organization. It adapts as its reality 
changes, it adapts very, very quickly. They have used various 
things to promote their brand identity, whether it was the 
occupation of the two holy places or the holy cities.
    A while back the popular line was to say, well, you know 
you need to deal with the Palestinian issue, because that is 
what is fueling al Qaeda and radical jihadism. Then it is Iraq. 
Then it is the Danish cartoons. Now it may be builders sometime 
over the next couple months as that evolves and takes on a life 
of its own. Then it was 9/11. But they have been very, very 
effective in driving their message through technology.
    I was in Libya last week, Libya, Tunisia, Morocco. I have 
been to Algeria. And it is interesting, as they have evolved, 
it is very interesting to be able to go and meet with Muammar 
Khadafi, and find out that Khadafi is now an ally with us in a 
certain context against radical Jihadists, as are the 
governments in Tunisia, Algeria, and Morocco. So as radical 
Jihadists morph, so do we. And I think we can make a very good 
argument that we need to do more, but we need to do more of it 
quicker.
    The thing that I would be interested in is your perception 
of the ability of al Qaeda, al Qaeda Central as we have 
referred to it out of Pakistan, the Pak-Afghan border, to 
extend its reach and influence into Western Europe, into the 
United States, to coordinate, direct, plan, train attacks 
against these. How good is it?
    During the break I think we were talking about the book, 
there was a book that came out, Leadership Jihad. And in that 
book, he makes the argument that al Qaeda Central isn't that 
important anymore, that radical Islam has taken a life of its 
own, and that eliminating bin Laden, taking care of Zawahiri, 
it is not that big of a deal anymore. I think the panel here 
may disagree with it. But I would be interested in your ability 
or your perception of al Qaeda to be able, from al Qaeda 
Central, to project into Western Europe and into the United 
States through homegrown terrorism. And we will go through the 
list.
    Mr. Bergen. Thank you very much, Mr. Hoekstra. Al Qaeda's 
ability to expand influence into Western Europe is obviously 
pretty high. I mean, the statement by John Evans, the head of 
MI5, that there were 2,000 people that they consider serious 
security risks sort of speaks for itself. Britain of course is 
particularly problematic because so many British Muslims visit 
Pakistan every year; 70 percent of British Muslims are 
Pakistani, and a disproportionate number of those are Kashmiri.
    The problem is also true in many European countries, but we 
are somewhat insulated by several factors in the United States. 
First of all, there is something called the American Dream. I 
grew up in Britain; I am not aware of a British dream or an EU 
dream certainly. And a country built on immigration like the 
United States is able to integrate its American Muslims much 
better. American Muslims are better educated than the average 
American, they have higher incomes, et cetera, et cetera.
    It is very hard to prove negatives, but I don't think al 
Qaeda sleeper cells exist in this country. If they exist, they 
are either comatose or dead. They have done nothing in the last 
several years. We have seen people particularly with al Qaeda 
living in the United States, but they are very small in number 
compared to the numbers we are seeing in Europe. And I can give 
you the names, but the names, you can count them on a few 
hands.
    So I think al Qaeda's ability to extend its influence into 
the United States is very small. But that has never been a 
problem anyway. When being attacked by jihadi terrorists, they 
are people coming from outside: Ramzi Yousef, Ahmad Ressam, the 
9/11 hijackers. So luckily we are somewhat insulated. In terms 
of Europe it is a very different picture.
    Now, of course you could have a mass casualty attack on a 
group of Americans in Europe quite easily. If the plane bomb 
plot in the summer of 2006 had succeeded, that is six American 
airliners, do the math; it is what, almost 2,000 people. It 
would have been a 9/11 style event. So that is really where the 
problem is, and that problem is going to get worse rather than 
better because for demographic reasons Europeans are not having 
children anymore. When you visit Florence in the future, it 
will be like the neutron bomb has gone off, where there are 
buildings but no Italians because Italians are simply not 
having kids. These countries face existential choices, which is 
we are either going to have a country without people or we are 
going to have to import a lot of people from somewhere else. 
And where will those people come from? In most European 
countries, the Middle East or North Africa. And, through a 
combination of European racism, a certain amount of alienation, 
a certain amount of homesickness, a number of those immigrants 
will turn to the al Qaeda ideology. Think about 9/11. 9/11 
wasn't incubated really in Afghanistan; it was as much 
incubated in Hamburg as it was in Afghanistan.
    So that is the problem going forward. And in some ways 
there is some optimism there, because it is harder to get in 
the United States. European countries also are realizing 
belatedly that they have this domestic problem.
    Mr. Grenier. I would very much agree with what Peter has 
just said. One of the things that I would point to as we look 
at the number of actual terrorist attacks, such as what 
occurred in London in July of 2005 and a number of others, to 
include some potentially catastrophic attacks that have been 
hatched in Western Europe and fortunately have not come to 
fruition. For the most part, if I am not mistaken, the would-be 
perpetrators and/or perpetrators of those acts have been self-
motivated and self-organized. These were not individuals who 
were recruited out of the tribal areas in Pakistan and then 
dispatched into Western Europe in order to mount these attacks. 
For the most part, these are people who came together sort of 
self-consciously, if you will, as part of a community nursing 
resentments and deciding to do something about it locally.
    Where the link with al Qaeda has occurred is they have 
reached back from a place where they could get support, either 
it is ideological support, religious instruction, technical 
support, financial support, back into the Afghan-Pakistan 
tribal areas. And I think that is significant; where the 
impetus, where the initiative has come from is significant. And 
the fact that the impetus came from areas far removed from the 
safe haven is very significant.
    As Peter has pointed out, the chances of that sort of a 
plot being hatched in a place like Western Europe are far 
greater than a similar thing taking place in the United States. 
Number one, there is a much larger Muslim population in many of 
the Western European countries, much less integration, much 
more perceived cause for resentment and hatred of the West 
than, fortunately, is the case here in the United States. It 
doesn't mean that it couldn't happen here in the United States, 
but I think that the chances for it are much greater in Western 
Europe.
    One of the great concerns that I have is the relative ease 
of transport between Western Europe and the United States; the 
fact that we have a very permissive visa regime between Western 
European countries and the United States which would enable 
those who would do us harm who are not indigenous to the United 
States to travel into the United States. That is not an 
argument for somehow raising much higher visa barriers, but it 
is a fact that, given the nature of our society, given the open 
society that we want to foster and maintain, it necessarily 
carries with it a much greater risk and vulnerability.
    Mr. Emerson. I would say that, first of all, there is a 
common narrative in al Qaeda's mantra with all of the 
defendants arrested in every single plot since 9/11. That 
mantra is that there is a war against Islam, it has been 
carried out by the West or the U.S. or--by the West since the 
crusade in 1095 and therefore we have to avenge it. And that 
was the mantra of the Danish suspects arrested in September, 
that was the mantra of the German suspects arrested earlier 
this year, that was the mantra of the British suspects arrested 
in the second plot and in the videos released in the first 
attack in July of 2005. And, by the way, that is also the 
mantra of the averted attacks in the United States. And I guess 
I would disagree with Peter, who I, by the way, used to work 
with very closely many years ago, and I would disagree with him 
on one point: That I think that the radicalism in the United 
States has not manifested itself because we have done a much 
better job of intelligence gathering in terms of preventing 
attacks. But I think the radicalism is pervasive here because 
of the groups that exist here. One can see they all were 
derived--not all of them, but some of the mainstream, quote, 
groups were derived from the Muslim Brotherhood as revealed in 
the Holy Land documents. And their mantra is, and you can hear 
it and we hear it all the time when we attend their 
conferences, is that there is a war against Islam. And a 
Canadian intelligence official testified last year that that is 
the one single motivating factor in inducing young Muslim men 
to carry out attacks, that type of anger.
    And so we averted an attack at Fort Dix, only because of a 
Circuit City clerk who saw--he was copying videos and he saw 
something suspicious. We averted an attack in Ohio in Peoria. 
We averted an attack in Lodi. And people make fun of these 
arrests because people are arrested at a very early stage of 
the plots, and the FBI becomes a victim of becoming too 
aggressive. Had these plots matured more and the public had 
seen much more of the evidence, then I think the public would 
be convinced that we have a serious radical Islamic danger in 
the United States. It doesn't mean that the vast majority of 
Muslims support it. They don't. But there is a radicalization 
process going on here largely induced by some of the mainstream 
groups that, unfortunately, have been considered to be partners 
with the FBI when they should be considered outcasts.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hoekstra.
    Mr. Holt.
    Mr. Holt. I yield to Ms. Eshoo.
    The Chairman. Ms. Eshoo.
    Ms. Eshoo. Thank you. I appreciate it. Thank you for your 
testimony today. I have four questions.
    My first question is, what do you estimate the number of al 
Qaeda in Iraq today, and what did you estimate al Qaeda to be 
when we invaded? That is my first question.
    My second question is on training. Can you describe where 
al Qaeda's training is today, the quality of it, the number of 
graduates, so to speak, that they produce? Give us some 
indication of what you know about that. And to what extent do 
you think al Qaeda is responsible for the acts of murder, 
kidnapping, terror against Iraqi Christians?
    Mr. Bergen. Thank you for those very excellent questions. 
The first one, al Qaeda in Iraq today, the size. Al Qaeda in 
Iraq is 80 to 90 percent an Iraqi organization. That has 
changed over time. When it started of course it was largely 
foreigners. Al Qaeda in Iraq, even though it is a relatively 
small part of the insurgency, perhaps 3,000 would be the 
minimal number, maybe 5,000 would be the maximal, who is 
conducting 80 to 90 percent of the suicide attacks and 
therefore has had a disproportionate effect on the course of 
the war.
    The size of al Qaeda in Iraq when we invaded was zero. 
There was no--Zarqawi was in Kurdish Iraq, northern Iraq, which 
of course was an area more under our control than under Saddam. 
So there was no al Qaeda presence in Iraq. Unfortunately, as a 
result of our invasion, there is now.
    The second question, training al Qaeda today, where is it 
happening, how good are the graduates, what are they getting. 
Let's look at the London attack of July 7, 2005 as a sort of 
model of this training. Two of the guides, two of the leaders 
trained in an al Qaeda training camp on the North-West Frontier 
Province.
    What are they learning? They are learning how to make a 
bomb with hydrogen peroxide. And one of my proposals is we need 
to be very careful henceforth about the way we control 
industrial strength hydrogen peroxide in this country. A bomb 
made out of hydrogen peroxide, and I have seen this being 
demonstrated in Britain, a relatively small amount would 
basically blow out the entire--everybody in this room would be 
dead. This is not the sort of thing you get at your 
hairdresser, industrial strength hydrogen peroxide.
    That is what is being taught. That was also the material 
that was going to be used in the summer plot to bring down the 
American airliners, that was also the material that was going 
to be used in the Ramstein Air Force Base. The numbers of 
people who are being trained are relatively small, but they 
are, unfortunately, enough to create these plots.
    Under the Taliban in Afghanistan, you are talking about 
hundreds of people going through training camps at any given 
moment. Here, you are talking about 10, 20 guys, all guys of 
course, in a small compound not amenable to overhead imagery, 
not amenable to bombing, disguised, able to get the bomb-
making, how to run a cell, enough to basically be an effective 
terrorist. So I hope that answers that question.
    And then the final question, al Qaeda's attacks on Iraqi 
Christians, I really don't know the answer to.
    Ms. Eshoo. Thank you. Does anyone want to add to what was 
just said in answering these questions?
    Mr. Grenier. I think I would add a little bit with regard 
to the situation in Iraq. As Peter has pointed out, al Qaeda in 
Iraq is primarily an Iraqi phenomenon. Perhaps 90 percent of 
its numbers have been Iraqis. And so, yes, while I would agree 
that there really was no al Qaeda in Iraq before the invasion, 
part of the reason that we suddenly had this flowering, if you 
will, of al Qaeda in Iraq was that although there was very 
little visible sign of an Islamic radicalization among some 
elements of the Iraqi population that we saw elsewhere in the 
Arab and Islamic world, we didn't see it in Iraq largely 
because of the climate of repression that existed there. Once a 
vacuum was created, the Ba'ath Party was removed, the Iraqi 
Army was removed, it suddenly became possible for this broad 
cultural phenomenon to manifest itself inside Iraq. It was 
precipitated I think by outsiders, foreigners who came into 
Iraq. But very quickly, again, in the absence of the further 
discrediting of the Ba'ath Party, radical Islamism became the 
primary ideology through which Iraqi nationalism expressed 
itself.
    Mr. Eshoo. It is a tragedy is what it is. That is just one 
word to describe it.
    Let me ask this. In moving forward, in January of 2009 we 
are going to have new leadership in the White House. And if 
two--either one of the Democrats are elected, they are 
promising a change of policy in Iraq. Can you fast forward and 
tell us what you think Iraq would look like with a drawdown of 
American troops and what it would look like, what Iraq would 
look like and al Qaeda?
    The Chairman. And if you can do it briefly, because we want 
to get all members to ask their questions.
    Mr. Bergen. Briefly. Al Qaeda has a narrative about the 
United States as a paper tiger narrative. Any drawdown from 
Iraq will inform that narrative. Vietnam, Beirut, Mogadishu.
    We are on the horns of a dilemma. We are going to confirm 
their narrative and we will help their strategy the less we are 
there. On the other hand, the fact we are there increases 
radicalization and gives energy to the jihadi movement around 
the world.
    So my short answer is, it is a very difficult problem, 
because you have got to balance the fact that you are 
increasing radicalization by us being there, and yet at the 
same time if we simply abandon the field to al Qaeda they have 
a strategy as well, which is to regroup, get a place for a safe 
haven in Iraq. Right now they are not doing well, but we know 
that the Iraqi Army is not going to do better than the U.S. 
military against this group. And as it is more of an Iraqi 
problem, we can guarantee that al Qaeda--if it is more of an 
Iraqi military approach to al Qaeda, that is less strong than a 
U.S. military approach.
    Mr. Grenier. I guess my short answer to the question is 
that it very much would depend on how a drawdown occurred. 
Right now al Qaeda in Iraq has been knocked back on its heels. 
It is on the run. And the reason for it is because they were 
able to show themselves for who and what they are to the mass 
of the Sunni population in western Iraq. Living under al Qaeda 
in a place where they actually hold sway is not a pleasant 
experience, and that is the reason why we have had the Sunni 
Awakening, why the Sons of Iraq have organized themselves, and 
why they have accepted support from the United States.
    So I guess I would say that in the context of any sort of 
drawdown from Iraq, it would be very important for us to 
maintain the U.S. connection with the Sunni Awakening and to 
continue to support that. I think that we could do that with 
far fewer troops in Iraq. Quite frankly, as someone who spent 
2\1/2\ years devoted to Iraq since just before the invasion, 
why we are enmeshing ourselves in intra-Sunni fighting in Iraq 
is somewhat of a mystery to me. But I think that we could 
maintain what we need to do in the terrorism fight against al 
Qaeda with much smaller numbers of troops in Iraq.
    Mr. Emerson. I would just say, I agree with Bob's comments 
that essentially it is how you withdraw. And if it is a 
precipitous withdrawal, I think that al Qaeda would fill that 
void. I mean, al Qaeda had its ebbs and flows, and it is really 
now at its nadir because of the opposition that it instilled 
and the resentment that is so popular in the Sunni areas.
    The issue of al Qaeda seeing the United States on the run, 
vacating, running away, like bin Laden has said we ran from 
Beirut, we ran from Somalia, we ran from Vietnam, this would 
fuel their sense of emboldenment and I think empower them 
further. So it is how we draw down, and it is how you conduct 
the policies, as Bob just said, of continuing certain policies 
that have been very successful in terms of fueling a popular 
resentment against al Qaeda in Iraq, which really has resulted 
in a dramatic reduction of support for al Qaeda in Iraq in the 
last 2 years.
    You had asked a question before about to what extent is al 
Qaeda responsible for killing Iraqi Christians. We have worked 
with some Christians in certain Muslim countries, including 
Iraq. At least I have been in contact with them. And in Iraq, 
as you know, the Christian community has been decimated. A 
large exodus, about 50 percent have actually left the country, 
and the other 50 percent have had to almost relocate themselves 
because of being forced out of areas. They have been forced out 
of areas because of a coalition. First it started off by al 
Qaeda, but now it has been picked up by radical Shiites who 
essentially had joined forces with the Sunnis at one point but 
now they have picked up the radicalized movement to push the 
Christians out of Iraq and to deny them. As you know, a major 
church leader was just assassinated just the other day, and 
that has been a regular occurrence almost every month now.
    The Chairman. Thank you.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Following up on that, Mr. Emerson. If we leave, will the 
Chaldeans be better off in Iraq? Any chance at all that they 
would be better off?
    Mr. Emerson. You know, it is a good question, Mr. Issa. I 
don't know. The Chaldeans have been particularly oppressed.
    Mr. Issa. But likely--just, you know, limited time here. 
But likely, if we were to leave today, they would be worse off?
    Mr. Emerson. They would not be protected as much. Right.
    Mr. Issa. Mr. Grenier, if we were to leave Iraq today, with 
the current Shia government and their mixed history on how they 
treat the Sunni, would it be reasonable to assume that al Qaeda 
would have an advantage by simply playing the Shia government 
and any failures of their fairness in order to gain a foothold 
of support back in the Sunni community?
    In other words--all my questions are very straightforward. 
A lot of people would have you believe a whole bunch of things 
about Iraq. The only thing that I am concerned about today with 
Iraq is if we leave are we better off? Some people have tried 
to say that if we get out of Iraq now things will be better. 
Specifically, the current government, as you see it, and that 
has been a public thing, today is not a government that Sunnis 
trust or that Sunnis believe they get fairness from. 
Realistically, the strides we have made in the Sunni community 
to get Sunni to fight this Sunni insurgency of al Qaeda, 
wouldn't that take a tremendous step backwards if we were to 
precipitously leave or if we were simply not there today, so to 
speak?
    Mr. Grenier. If there was a total U.S. withdrawal? Is that 
what you----
    Mr. Issa. That is what I am saying.
    Mr. Grenier. I think that the short answer to your question 
is, yes, the situation I think would be far worse. The Sunni 
dominated government does not now nor do I think in the near 
term they are likely----
    Mr. Issa. The Shia dominated government.
    Mr. Grenier. The Shia dominated government, is not likely 
to provide institutional support to the Sunni Awakening. Quite 
frankly, they see it as a threat to themselves.
    Mr. Issa. And I can understand that with the historic past 
it is going to take time to heal those wounds.
    Mr. Bergen, when we look at the rest of the areas in which 
there has been radical jihadist activity over the years, the 
Hamas, funded by Iran, are Sunni; they in fact have conducted 
with Shia money for a long time a war, an insurgency against 
Israel. Isn't that correct?
    Mr. Bergen. Yes.
    Mr. Issa. The United States hasn't been there, and we 
failed, all of us have failed to stop it, as I see it, because 
in fact the United States has not been able to get the buy-in 
and the actual combating of Hamas by the Palestinians. No 
matter how we look at good efforts, bad efforts, the bottom 
line is the Palestinian Authority has never been able to 
effectively attack Hamas and Israel has been effective only in 
attacking them, but in fact ultimately not eliminating the 
radicalism.
    Is that a fair assessment of what we deal with in the 
Palestinian territories today, in Gaza particularly?
    Mr. Bergen. I am not an expert in this area, but it seems 
so.
    Mr. Issa. Okay. In Egypt, where the Muslim Brotherhood had 
its roots and continues to this day, would you say that the 
Egyptian Government, whether we approve or don't approve of 
their tactics, have for the most part been able to contain the 
activities of the Muslim Brotherhood, their growth, their 
exports, and their terrorist activities, recognizing there have 
been some stellar attacks over the years? But would you 
generally say that Egypt has, at its own expense in its own 
way, with limited help from the outside world, been able to 
contain the Muslim Brotherhood?
    Mr. Bergen. Well, yes and no. Because you can make the 
argument that much of al Qaeda's violence stems from the 
treatment of people like Ayman al-Zawahiri in Egyptian prisons. 
That is where he got more radicalized. And of course, the 
Muslim Brotherhood has done quite well in the elections; I 
would disagree with Steve on this point. I mean, al Qaeda hates 
the Muslim Brotherhood precisely because it participates in 
elections. So these are apples and oranges in many ways.
    Mr. Issa. The reason that I am going through this line of 
questioning, recognizing that each one of these has a pitfall 
in some way, is as we as the intelligence community in a public 
hearing versus our often private, we are here to talk in a term 
of policy. Realistically, when we look at all the countries, 
and I only went through a smattering of them, I could have 
gotten into Lebanon and Hezbollah. Isn't our only choice, 
whether it is in Iraq or anywhere else in the Muslim world, our 
only choice to find a government that will work with us, arm 
them, equip them, assist them in not radicalizing further, and 
fight jihadism in each and every one of those countries? And we 
could obviously go to Germany and other countries that are not 
Muslim countries and deal with theirs. But isn't that 
ultimately our only choice, that whether we have troops in Iraq 
or not, we are going to have to be side-by-side with some Iraqi 
Government stopping this and stemming the flow of jihadism from 
that country? Isn't that ultimately the only choice America has 
in not one or two but in dozens of countries?
    Mr. Bergen. Not really. Because it depends on what form of 
government you are talking about. It is not an accident that so 
many members of al Qaeda develop in countries with 
authoritarian regimes.
    Mr. Issa. Like Germany?
    Mr. Bergen. Saudi Arabia, Egypt, Algeria, Tunisia, Yemen. I 
mean, look at the vast disproportionate numbers within al Qaeda 
are these kinds of--emerge out of these kinds of societies.
    Mr. Issa. I appreciate that. Mr. Chairman, I might just 
note that what the American President and this Congress have 
been attempting to do in Iraq is to make sure that Iraq is not 
an oppressive, totalitarian government such as the ones cited 
by the gentleman.
    I yield back.
    The Chairman. Thank you, Mr. Issa.
    Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you, 
witnesses, for being here. I was out at another hearing; I 
don't know if this has been said already, but I don't think you 
can say it enough. With the discussion today about how the al 
Qaeda has become stronger over the recent time and in light of 
the hearings yesterday in the Senate and probably what is 
happening today in the House, where General Petraeus has stated 
that there is no light at the end of the tunnel, we haven't 
turned the corner, and we have moved the champagne to the back 
of the refrigerator, I think it is important to note that none 
of these problems are the fault of the very brave and heroic 
U.S. military people who are serving abroad. They are doing an 
outstanding job, and I just don't want anybody to come away 
with the feeling that they have let us down.
    Al Qaeda has used the situation with the Palestinians to 
generate a lot of anti-Western outrage throughout the Muslim 
community, and the administration has just recently--this 
administration has just recently engaged in trying to figure 
out a peace process for that situation. Has the 
administration's reluctance to encourage a resolution to the 
Israeli-Palestinian conflict heightened al Qaeda's ability to 
build popular support and recruit new members?
    Mr. Emerson. If I could respond and just add something to 
what Mr. Issa----
    Mr. Thompson. No. You can do that later. This is my time.
    Mr. Emerson. Okay. I won't take your time away. I think 
that the bottom line is you can't make peace unless somebody 
will make peace with you. And Israel faces a problem that it 
lives in a bad neighborhood and it can't move. And Mr. Abbas 
may have good intentions, but he can't basically even tie his 
shoelaces without getting permission.
    Mr. Thompson. So you don't think that waiting 7 years to 
engage has been a problem?
    Mr. Emerson. I think in fact engagement is not the answer. 
I think that the notion even that an Arab-Israeli solution is 
going to tamp down al Qaeda is absolutely erroneous. And I 
think that if Israel was eradicated tomorrow you would still 
have the same degree of Islamic radicalism.
    Mr. Thompson. I understand. Thank you.
    Mr. Bergen. We are interested in swing voters in the Muslim 
world. We are not going to influence bin Laden. He is 
irreconcilable. What we are interested in is basically getting 
the Muslim world to change its opinion about the United States. 
And there is no single issue that is more important than the 
Israeli-Palestinian process. And I would add to that that the 
Kashmiri peau process is something the United States hasn't 
really engaged in, but that is something the United States 
should take a much stronger role in because there are some good 
movements there. We have done very little to help that process. 
And that is how al Qaeda often recruits people, through the 
Kashmiri militant process.
    Mr. Grenier. If I could just add to that. I strongly 
disagree with Mr. Emerson. I think that our failure to use our 
influence in a way that would ameliorate the situation in 
Israel and Palestine has very much helped to improve the 
climate in which al Qaeda is able to recruit elements to its 
cause. But, as I think Peter is pointing out, even more so I 
think that it affects the climate within which terrorists 
operate. The vast majority of the Islamic world are moderate, 
they are not inclined or not susceptible themselves to becoming 
terrorists. However, I think that many of them are ambivalent. 
Many who don't have to live under the deprivations of al Qaeda 
themselves feel fundamentally ambivalent about the fact that al 
Qaeda is among the few elements in the Islamic world who are 
confronting what they perceive broadly in the Islamic world as 
an enemy.
    The only way that we are going to eliminate al Qaeda is to 
isolate them and to turn the mass of the Islamic population 
actively against them. I don't think you do that in the context 
of a much broader narrative in which Muslims are being seen as 
oppressed.
    Mr. Thompson. Thank you. There are about 500,000 Pakistanis 
living in the United Kingdom, and the planners of Britain's 
most serious terrorist plots, the 2005 London underground 
bombings and the 2006 plot to bomb British airliners en route 
to the United States came about because of folks who are 
trained, terrorists who are trained in al Qaeda camps in 
Pakistan before they return to Britain. Do you think that the 
connection between Britain's Pakistani population and al Qaeda 
safe havens in the FATA is a problem? Is there a connection 
there, and is that a problem for us?
    Mr. Bergen. The short answer is yes.
    Mr. Thompson. In light of what the CIA Director said the 
other day about training Westerners, we would have a hard time 
distinguishing if they tried to come into this country?
    Mr. Emerson. In fact, he was referring to the German plot, 
where the two Westerners had gone to Pakistan together with a 
Pakistani immigrant to Germany, and who subsequently just blew 
himself up in a suicide attack. But the two Germans had been to 
Pakistan to train.
    Mr. Thompson. Are they training any Americans there? Do you 
have any knowledge?
    Mr. Emerson. I do not know of any specific knowledge of 
Americans being trained. I have talked to people in the 
intelligence community who say that there are Americans of--
American immigrants here who have gone back to Pakistan, as we 
saw in the Lodi connection, to carry out attacks back here when 
they come back here.
    Mr. Thompson. Anybody else?
    Mr. Bergen. The only American I can think of is Adam 
Gadahn. He is an exception that proves the rule. This is quite 
unusual.
    Mr. Thompson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Thompson.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. You know, sometimes 
the difficulty of these kinds of hearing is that in a short 
time people are trying to make their points about where we are 
and either what we did wrong or right. But one thing I found 
that is completely missing today is putting in context. I am 
going read a couple things, if I can, quickly.
    One, Mr. Emerson, you talked about the fact that they talk 
often about Beirut, and then we left; the USS Cole, and how we 
left Yemen. All of those things, not only they talk about, but 
they use them in recruiting materials. We have recruiting 
materials where they recruited people around the world. So we 
need to put all of this in--that all happened before 9/11, that 
they were actively recruiting based on their successes and the 
fact that they chased us out of places I think is unbelievable. 
They also use the African embassy bombings. Somalia. They list 
them all. The 1993 World Trade Center, they consider that a 
successful attack. And they use them in recruiting materials.
    So this notion that all of a sudden now they are recruiting 
based on Iraq does not put it in the proper context, I don't 
think. And I think that if we are going to make a knowledgeable 
assessment here we need to set all the facts on the table. And 
I just want to--a couple of things. This notion, or at least 
the image that has been given out today is that, gee, there is 
no terrorism existed in Iraq before we got there. That is 
clearly not true. It is clearly not true. And it wasn't al 
Qaeda sponsored, but it was very interesting the parallels. I 
am just going to read a few that we know since the invasion.
    According to correspondence between two Iraqi entities, 79 
regime directed attacks were successful against ``saboteurs, 
Kurdish factions, U.N. Operations, and various international 
NGOs. A routine example is found in a Fedayeen staff officer 
responding to Uday Hussein's authorization of a series of bomb 
attacks against foreigners staying in hotels in the northern 
region. Documents indicate that the regime's use of terrorism 
was standard practice, although not always successful. From 
1991 through 2003, the Saddam regime regarded inspiring, 
sponsoring, directing, and executing acts of terrorism as an 
element of state power. Under Saddam, the Iraqi regime used its 
paramilitary Fedayeen-Saddam training camps to train terrorists 
for use inside and outside of Iraq.
    These are things that we know and are factual.
    In 1999, the top 10 graduates of each class Fedayeen-Saddam 
class were specifically chosen for assignment to London, where 
they were to be ready to conduct operations anywhere in Europe. 
A memo specifically states that these trainees are designated 
for suicide operations.
    One more memo from Saddam to the Revolutionary Council in 
the Iraqi Intelligence Service directed Saddam's decision to 
form a group to start, quote, hunting Americans present on Arab 
soil, especially Somalia. A separate memo indicates Saddam 
ordering the Iraqi Intelligence Service Director to set up 
operations inside Somalia. The overlap between bin Laden's and 
Saddam's interests in Somalia provides a tactical example of 
the parallel between Iraq and radical Islam.
    Obviously, they weren't working in cahoots, but their 
mission was identical. At the same time Saddam was ordering 
action in Somalia aimed at the American presence, Osama bin 
Laden was doing exactly the same.
    And I guess my point being, and I hope you can flush this 
out a little bit, that not only at the time I think, Mr. 
Bergen, you mentioned that they were saying they are down and 
out and, gee, we shouldn't have done it, there are also many 
who argue in al Qaeda at the time they weren't doing enough. 
They needed to be more aggressive. They needed to get more 
successes like the ones that they had had where they had the 
great successes, Beirut, Somalia. And the list goes on. They 
were trying to promote more of that.
    So I don't think it is fair to say, well, they were down on 
the ropes and they weren't doing any recruiting, and this 
breathes new life and taught them how to recruit. None of that 
is really true. There is a long history of these relationships. 
I mean, Abu Abbas of the PLF was found giving safe haven, who 
was the chief sponsor of the Achille Lauro event, in Baghdad in 
2003. There is a long connection, and this guy was a Stalinist 
to the hilt. I think he had the largest collection of Stalinist 
works because he believed in the Stalinist method of cutouts 
and operatives to do his dirty work around the world. That is 
where he learned it. At least that is what he said he did, he 
learned it from those folks.
    So I think we have to be careful about this. Iraq can't be 
handled from an intelligence perspective in isolation. It 
cannot. When you loaded up 130,000 troops in Afghanistan, to 
expect that he wasn't going to do the same kind of things that 
he was already doing against us in other places around the 
world is ludicrous. The fact that Iran wouldn't do it because 
somehow it was a nice war in Afghanistan and not a nice war in 
Iraq really doesn't make any intelligence sense. And the notion 
that you said, well, gee, if we were to put 130,000 troops on 
the Afghan border, I would be really curious to know how you 
believe that would have in any way impacted operations in the 
tribal areas.
    And, Mr. Grenier, I would like you to respond to that as 
well, knowing the Pakistani Constitution clearly separated 
those areas out of their own country, which has added to their 
own difficulty there. And I would appreciate any response. 
Again, I am just looking for--it has been very focused today. 
We should put this in the proper context so we understand that 
terrorism didn't just reinvent itself and automatically appear 
in Iraq the day we set foot on their soil.
    Mr. Bergen. Of course that is correct. But the Iraq war 
amplified the energy in the jihadi movement. And without 
detaining you with the details, that is simply an objective 
fact. There is a great deal of evidence for this.
    The documents you quoted from are--the overall assessment 
of those documents is there is no operational link between al 
Qaeda and Saddam Hussein's Iraq. That is the document you were 
quoting from earlier. We are presumably talking about al Qaeda; 
we are not talking about Abu Abbas or others in this hearing; 
we are talking about people who can actually attack the United 
States. Abu Abbas killed of course Leon Klinghoffer, but that 
is one person, that is not a national security problem. So you 
asked about Pakistan.
    Mr. Rogers. Would Italy agree with your assessment? How do 
you take terrorism in isolation and say the only group capable 
of attacking the United States is al Qaeda? I would be curious 
to your answer to that. Is the only group we should be worried 
about al Qaeda?
    Mr. Bergen. I am not worried about radical vegetarians 
attacking the United States right now, but maybe at some point 
in the future. But al Qaeda----
    Mr. Rogers. Your cynicism is a bit offensive when you list 
the organizations, and the al Qaeda in the Maghreb is a great 
example. They migrated there for the financing, but they were 
still a threat, killed 150,000 people. I don't know how you 
would dismiss that with a glib comment. That is a serious 
terrorist organization, took the lives of 150,000 people in the 
1990s in Algeria. That is just to be dismissed?
    Mr. Bergen. As to your question on Pakistan, there is a 
tremendous opportunity on Pakistan.
    Mr. Rogers. I would understand why you wouldn't answer the 
question, sir.
    Mr. Bergen. As to your question on Pakistan, support for 
suicide bombing has dropped from 33 percent to 9 percent in the 
last several years. Support for bin Laden personally has 
dropped from 70 percent to 4 percent in the last 9 months in 
the Northwest Frontier Province where he lives.
    There is a tremendous opportunity in Pakistan, but also a 
tremendous potential trap. Nothing has discredited Pakistani 
officials more than the claim that they are stooges of the 
United States, one of the reasons Musharraf is such an 
unpopular guy. So we have to be very careful in our responses 
in Pakistan.
    I think Pakistanis are beginning to dimly realize that this 
is a problem that is blowing back on themselves. Benazir Bhutto 
after all was the most popular politician in the country. She 
was killed by a Taliban cell. So I think that this year, if the 
Pakistanis don't do what is required politically, the stars are 
aligning perfectly both in terms of the public opinion and also 
the politics at the higher level.
    So, just to strike a note of optimism, this year could be 
the year that Pakistan finally gets its act together, because 
previously it has not been clear whether it is a lack of 
willingness or a lack of capability or both that they haven't 
gotten rid of the Taliban and the al Qaeda on their territory. 
So, looking forward, this might be a moment of opportunity.
    Mr. Emerson. If I could associate myself with your 
comments. I think you are 100 percent correct that we can't 
look at this in a vacuum. And the fact is that Saddam--I wrote 
a book in 1991 about an Iraqi terrorist defector, and he 
detailed all of the terrorist operations that he was involved 
with or he was aware of that were supported by Saddam. And they 
were massive. They were against the United States in terms of 
planning or even carrying out operations.
    And so I think you are 100 percent right that we overthrew 
a regime that was a terrorist regime, that was carrying out 
$25,000 bounties for suicide bombers in Israel, that was 
carrying out operations in Europe against American embassies, 
that was a haven for hoards of terrorists from the Palestinian 
groups, secular Palestinian groups and the Marxist groups, and 
also some of the jihadist groups. Even though there was no 
linkage between 9/11 and Saddam, he still had linkages with 
Hezbollah, and Hezbollah had trained with him and he had 
provided weapons to Hezbollah. So you would think, how could 
this be, a secular--a Sunni providing weapons to a Shiite 
religious group. Well, this is the strange bedfellows that they 
produced.
    So I think you are 100 percent right to note that that is 
the context in which we are dealing. And terrorism suddenly 
didn't arise in Iraq just because we stepped in there in 2003; 
it had long been there.
    Mr. Grenier. Clearly, Saddam has attempted to use terrorism 
for his own ends in the past and/or was supportive of terrorist 
efforts elsewhere, as Steve has just pointed out. In 1991, I 
have direct knowledge of the efforts on the part of Saddam 
Hussein and regime to employ Iraqi operatives as terrorists to 
attack American targets in the context of the first Gulf War. 
Fortunately, their tradecraft was very bad and we and our 
allies were able to wrap most of them up. I think probably the 
most notable example of those attempts occurred in Manila, as I 
recall.
    With regard to efforts on the part of Saddam's operatives 
to get engaged in Somalia, I am not personally aware of that. I 
think, as Peter has pointed out, I am not aware of the 
compelling body of evidence of Saddam's active support to 
Islamically inspired terrorists. There has been some dabbling 
on the margins, but I don't think there was a link that was 
ever firmly made. But with regard to the fact that obviously he 
played host to Abu Abbas, that is a matter of historical 
record.
    Mr. Rogers. But don't you think it is very clear by the 
evidence and even what was uncovered since, that ideologically 
he wasn't a radical Islam supporter, but for his own aims and 
ends he certainly did use, operate, and attempt, like you said, 
some successful, some not so successful, but he was certainly 
engaged in the activity. The evidence proves it.
    Mr. Grenier. He tends to employ terrorist methodologies.
    Mr. Rogers. My point is, if you commit a crime, I am not 
sure the motive of doing it for ideological reasons or for 
personal reasons, you have still committed the crime.
    The Chairman. But let's stop the spinning. And by the 
rationale expressed here, then the ends justifies the means, 
and we ought to be prepared to invade other areas of the world 
that have similar conditions. And clearly that has not been the 
policy of our government, and we need to recognize that we 
are----
    Mr. Rogers. I don't know where you are suggesting the 
spinning necessarily. Presenting the facts as you know them, 
you can take them for what you want. You can like the war or 
not. But the problem is if you only hear one set of facts you 
can't make a conclusion. I am offended that you would say that.
    The Chairman. No. What I am trying to say is that we are 
where we are today because decisions were made to abandon the 
effort against al Qaeda in Afghanistan and make a hard charge 
into Iraq.
    Mr. Rogers. There has been no abandonment of that.
    The Chairman. Well, we certainly have not--we did not put 
the resources in there when we had bin Laden in Tora Bora. We 
left, and in fact Mr. Bergen in an article that he wrote said 
we pulled out the Fifth Special Forces which were the 
specialists for the----
    Mr. Rogers. And I would remind the chairman that the surge 
happened there after the Taliban regrouped itself near Quetta, 
not the al Qaeda. And then they have subsequently come in 
through the strength of people like Mehsud and others who have 
fostered that. That is a big difference than blaming the forces 
on the ground----
    The Chairman. Nobody is blaming the forces. What we are 
saying is that policy decisions have brought us where we are 
today, and that brings us back to the mess that we are in that 
is going to be passed on to the next administration.
    And, which brings me to a question that I want to ask you 
three gentlemen: Do you have a recommendation for the 
policymakers? Based on where we are today, based on the fact 
that we are going to elect a new President with a new 
administration that is going to have to I think refocus our 
foreign policy, do each of you, because you are experts in your 
respective fields that we want to hear from, do you have a 
recommendation for policymakers? And we will start with Mr. 
Bergen.
    Mr. Bergen. Thank you. Let me just quickly say, Afghanistan 
and Pakistan are part of the same problem. They are not two 
distinct problems. Just as it would be completely absurd to 
have a discussion about Palestine without a discussion of 
Israel or vice versa, we have to consider both of these. So 
these are regional problems.
    We also have to say, as policymakers, that we are going to 
be in Afghanistan for a very long time. Afghans remember we 
closed our embassy there in 1989. They think we have a 
narrative that we are going to leave. We are going to be there 
for 15, 20 years. Let's just say that we are going to be there 
for 15 to 20 years and effect the hedging strategies of the 
Pakistani government and all the regional players.
    We also need to help the Pakistanis with their 
counterinsurgency. They have a counterinsurgency problem, but 
they are set up to fight a land war with India. And some of our 
military aid should be conditioned on the idea that they bring 
people over here for counterinsurgency training; perhaps, with 
their permission very importantly, we help them set up some 
sort of counterinsurgency training in Pakistan.
    I mentioned the universal database for insurgents, 
terrorists, people joining the jihad, the clerics. I think this 
is an important thing that should be shared across all 
intelligence agencies. We need to redouble our efforts to find 
bin Laden, Ayman al-Zawahiri, and Mullah Omar, but we need to 
do it without any public fanfare so they don't derive a 
propaganda victory.
    We also need to create an office of metrics where we can 
determine how are we doing. Because right now we have these 
discussions without really saying, well, are jihadi Web sites--
are they declining in importance? Is support for suicide 
bombing going down in the Muslim world? These sorts of 
questions, which would indicate--we are never going to have a 
surrender ceremony, but there are certain metrics we can have 
which I detail in my testimony which would be helpful.
    And, finally, just a small tactical thing. Industrial 
strength hydrogen peroxide is a weapon of choice. We need to 
make sure that people buying that kind of material in this 
country are not doing so without the government being aware of 
it if it is for nefarious purposes.
    Mr. Grenier. I would say I would agree with Peter that we 
need to have, to maintain, and to communicate a long-term 
commitment to the Pakistan-Afghanistan region. I think that the 
government in Pakistan, and Pakistani people in particular, as 
well as the Afghans, are fully expecting that we are going to 
leave. I think that they need to know that we are there for the 
long term. I think that on the Pakistani side of the border 
what we need to have is a long-term, sustained, committed 
counterinsurgency effort, of which economic development is a 
very important part. I think that the Federally Administered 
Tribal Areas are a wonderful and romantic entity of the 19th 
century that we can no longer afford. I think those areas have 
to be incorporated into Pakistan proper. There needs to be a 
commitment on the part of the government of Pakistan to do 
that, and we need to be there for the long term to help them to 
do that so they can fully incorporate those areas into Pakistan 
and establish centralized government control over those areas 
in the same way that they do in Karachi and Lahore.
    With regard to Afghanistan, there too I think we need to 
have a long-term commitment, but there is a big caution there. 
I think that the major part of the fight against a resurgent 
Taliban is being led by U.S. and NATO forces. I think that so 
long as the effort is being led by foreign forces we may win a 
series of tactical victories but we will not succeed 
strategically.
    The long-term answer in Afghanistan has to be Afghan led. 
If that means building up and supporting local militias in 
southern Afghanistan in the way that the U.S. has been 
reluctant to do up until now, I would say so be it. But it has 
to be an Afghan-led solution there.
    Finally, with regard to Iraq, I think there are a lot of 
different ways of skinning the cat, and the broader context of 
the U.S. commitment to Iraq I think can be calibrated in 
different ways, but I think that a necessary component of that 
must be a continued commitment on the part of the United States 
to support the Sunni Awakening in a way that a Shia led 
government simply will not.
    Mr. Emerson. I am just going to briefly add a couple of 
points. One is, according to some people I have spoken to in 
the intelligence community, the CIA has become risk averse in 
HUMINT collection and covert operations in Afghanistan. And I 
think Congress should encourage the CIA to be much more active 
and aggressive in carrying out collection and covert operations 
from disinformation to actual paramilitary operations in 
Afghanistan.
    Number two, I think that in Pakistan the U.S. really has to 
apply the full pursuit of all of its means of pressure on the 
new regime to cooperate with the U.S. and to give us latitude 
to go after the high targets, high value targets, as well as 
for them internally to understand that they cannot keep those 
areas, the FATA and the North-West Frontier Province, a 
liberation zone for the Taliban, because it is going to come 
back to bite them.
    Number three, I really do believe that overall we don't 
teach our counterterrorism--there is no counterterrorism 
doctrine that teaches what the fundamentals of the enemy is all 
about. And that I think is essential. And unless we teach them 
about the Muslim Brotherhood and teach them about radical 
Islamic theology that envelopes all of these regimes and has 
implanted itself in Europe and in the United States, after all, 
we are here to talk primarily about protecting the U.S., then 
we want to protect Europe, and then we want to protect our 
interests overseas. Unless--and the thrust of the reported and 
aborted attacks in the United States have not come from al 
Qaeda, but from franchises or from self-activated cells 
mobilized by just the radical Islamic theology that had 
initially been propagated by the Muslim Brotherhood as early as 
1928.
    The Chairman. Thank you.
    Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman. There has been a lot 
of discussion about this administration, the mess, and these 
kinds of things. I think where we need to move to, and I really 
appreciate the testimony of this panel today because I think 
what you have identified for us one more time is how complex 
this problem is and potentially how deadly it is, how dangerous 
it is, and how complicated it is going to be to develop the 
right strategies and the right tactics to confront this threat 
and ultimately defeat the threat.
    You know, there were some of us who were very critical of 
what we would say is the mess that President Bush inherited 
when we looked back at 9/11 and at, you know, what happened to 
the Intelligence Community in the 1990s, how al Qaeda and 
radical Jihadists were treated, and that problem was dealt with 
in the 1990s.
    Obviously, there are strong views about how this 
administration has dealt with the threat, the things that they 
have done perhaps correctly, the things that maybe they could 
have improved on.
    I think the lesson that we need to walk away with from your 
testimony, your identification of what the problem is, this 
country needs to develop a long-term, bipartisan consensus on 
how to defeat this threat. You know, we need Republicans and 
Democrats, Congress and the administration to come together and 
do that.
    You know, there are all kinds of components to this. There 
is a military component. There is a political component. There 
is an economic component. Then, at the end of this whole 
process, you recognize that if you are going to be successful 
in Iraq or in Afghanistan or in Pakistan, it is going to have 
to be very much driven by people in those countries.
    You know, the U.S. cannot impose a solution in Iraq. We 
cannot impose a solution in Afghanistan or in Pakistan or in 
Northern Africa. You know, the only thing that we can do is to 
help create conditions that will enable those governments to be 
more successful against this threat.
    I hope that what we learn through this process, where we go 
through this year and where we end up in January is that we 
embark on that process of getting a bipartisan, long-term 
strategy, recognizing that we will continue to try more tactics 
to confront and to defeat this threat. Some of them will be 
successful. Some of them will be moderately successful. Others 
may be just dismal failures. Because, as much as we know, there 
is still a lot that we do not know about how to contain and to 
defeat this kind of threat.
    There is not a question in there. I just very much 
appreciate your helping to enlighten this committee and to give 
us your perspectives on where we are and where we need to go. 
So thank you very much.
    The Chairman. Thank you, Mr. Hoekstra.
    Mr. Rogers, do you have any closing?
    Mr. Rogers. No, other than you look handsome today.
    The Chairman. Thank you very much.
    I want to echo Mr. Hoekstra's comments.
    First of all, we very much appreciate your willingness to 
come in and to share your thoughts on this issue, and we hope 
we can count on you again in the not-too-distant future. 
Because we do have to work our way through these challenges, 
and it has got to be done on a bipartisan basis, and it has got 
to be done with the next administration in concert, I believe, 
by making a case to our allies that it is in everyone's best 
interests to help us in the region with the challenges that we 
all face collectively there.
    NATO has stepped up somewhat, not in the way that, perhaps, 
a lot of us have discussed that they could be the most helpful 
with the limitations that they have imposed. Certainly, as we 
look at the long-term strategy and at the threat that al Qaeda 
and that all of these types of organizations pose, including 
the free-lancers--because I think all of you made reference to 
the fact that bin Laden and al Qaeda have given an inspiration 
to some of these people who are, for their own reasons, stuck 
in a situation that foments that kind of resentment in whatever 
country, whether it is in Europe, whether it is here or whether 
it is in other parts of the world, and that is a very dangerous 
situation.
    So, collectively, we need to find a way to work together, 
to understand that it is going to be a costly endeavor and 
costly not just in the traditional sense of money but also in 
resources and in effort that keeps the main focus on the goal, 
which is to try to eliminate these very dangerous actors out 
there. Because the threat has really dramatically changed from 
the Cold War days.
    So, again, thank you all for your testimony. There were 
some members who wanted to be here, but they are in markups, 
and they asked me if it would be possible for them to have some 
questions for the record. If you will agree to indulge that, we 
would very much appreciate it.
    Again, thank you for your time and for sharing your 
expertise.
    With that, the hearing is adjourned.
    [Whereupon, at 2:52 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
